<html>
<title> - THE RISE OF 3D PRINTING: OPPORTUNITIES FOR ENTREPRENEURS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



        THE RISE OF 3D PRINTING: OPPORTUNITIES FOR ENTREPRENEURS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             MARCH 12, 2014

                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            Small Business Committee Document Number 113-059
              Available via the GPO Website: www.fdsys.gov





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
87-278                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001
























                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                       BLAINE LUETKEMER, Missouri
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                   JAIME HERRERA BEUTLER, Washington
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                       DAVID SCHWEIKERT, Arizona
                       KERRY BENTIVOLIO, Michigan
                        CHRIS COLLINS, New York
                        TOM RICE, South Carolina
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                        BRAD SCHNEIDER, Illinois
                          RON BARBER, Arizona
                    ANN McLANE KUSTER, New Hampshire
                        PATRICK MURPHY, Florida

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director
















                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Sam Graves..................................................     1

                               WITNESSES

Mr. Patrick O'Neill, CEO, olloclip, LLC, Huntington Beach, CA....     2
Mr. Jonathan Cobb, EVP, Public Affairs, Stratasys, Inc., Eden 
  Prairie, MN, testifying on behalf of the National Association 
  of Manufacturers...............................................     4
Mr. Peter Weijmarshausen, CEO, Shapeways, Inc., New York, NY.....     6
Ms. Jan Baum, Executive Director, 3D Maryland, Maryland Center 
  for Entrepreneurship, Columbia, MD.............................     8

                                APPENDIX

Prepared Statements:
    Mr. Patrick O'Neill, CEO, olloclip, LLC, Huntington Beach, CA    25
    Mr. Jonathan Cobb, EVP, Public Affairs, Stratasys, Inc., Eden 
      Prairie, MN, testifying on behalf of the National 
      Association of Manufacturers...............................    30
    Mr. Peter Weijmarshausen, CEO, Shapeways, Inc., New York, NY.    35
    Ms. Jan Baum, Executive Director, 3D Maryland, Maryland 
      Center for Entrepreneurship, Columbia, MD..................    40
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
        THE RISE OF 3D PRINTING: OPPORTUNITIES FOR ENTREPRENEURS

                              ----------                              


                       WEDNESDAY, MARCH 12, 2014

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:00 p.m., in Room 
2360, Rayburn House Office Building. Hon. Sam Graves [chairman 
of the Committee] presiding.
    Present: Representatives Graves, Luetkemeyer, Schweikert, 
Bentivolio, Collins, Rice, Schrader, and Payne.
    Chairman GRAVES. I will go ahead and call the meeting to 
order. The ranking member is going to be delayed for just a 
little bit, but we also have a vote coming up at any moment 
which will delay the hearing slightly, which I apologize for. 
We never know for sure when they are going to schedule votes. 
And unfortunately, they are going to schedule them right in the 
middle of our hearing. But we will go ahead and get started and 
see how far we can get before they do call that vote.
    3D printing or additive manufacturing is a process of 
creating objects from a digital model, typically through the 
deposit of a material layer upon layer until an object is 
formed. Today, we are here to discuss how 3D printing is 
spurring innovation and entrepreneurship all across the 
country.
    While the technology has been around since the 1980s, it 
has traditionally been used by large companies in industrial 
settings for rapid prototyping. But in the last 10 years, 3D 
printers have become more affordable, which is opening the door 
for smaller businesses and entrepreneurs to begin benefitting 
from the technology. For instance, some models are now 
available for under $1,500, and analysts expect prices to 
continue to go down.
    Small businesses and entrepreneurs are using 3D printing in 
a variety of ways. It has the ability to save time and costs 
during the creation of prototypes, make highly-accurate parts 
that assist in product production, and produce finished 
products that may be sold directly to end-users. 3D printing 
has become, and will increasingly be, a critical component of 
the operations of many small businesses. While a number of 
entrepreneurs and at-home innovators are using it to print 
models of products that they intend to manufacture with 
traditional methods, others are using the technology to create 
products from start to finish, sometimes that can be done right 
there in the garage. As 3D printers continue to become more 
affordable and advanced, the number of small businesses that 
begin as ``household manufacturers'' is likely to skyrocket.
    While some embrace and capitalize on new technologies, 
others are very wary and cautious about the technology. As 
Congress and other regulatory bodies consider policies 
applicable to this and other technological advances, it is 
important that we must not be hasty and do not unduly restrict 
the ability of small businesses, entrepreneurs, and other 
innovators to help grow our economy.
    We are fortunate to have with us a very interesting group 
of makers and users of the technology, which includes 
entrepreneurs that use 3D printing in their development of 
products. I look forward to hearing your insights on how small 
businesses are using this technology to grow and obviously 
create jobs, which is what this Committee is all about.
    So we will move right on into our witnesses. Our first 
witness today is Patrick O'Neill, who is the founder and CEO of 
olloclip, a clip-on lens for iPhones and other Apple products. 
Prior to founding olloclip, he was product manager and VP of 
product development at Premier Systems, which is an information 
technology resaler and consulting organization. Mr. O'Neill was 
named Entrepreneur Magazine's 2013 Entrepreneur of the Year. 
Welcome to the Committee, and we look forward to hearing your 
testimony.

  STATEMENTS OF PATRICK O'NEILL, CEO, OLLOCLIP, LLC; JONATHAN 
       COBB, EVP, PUBLIC AFFAIRS, STRATASYS, INC.; PETER 
   WEIJMARSHAUSEN, CEO, SHAPEWAYS, INC.; JAN BAUM, EXECUTIVE 
  DIRECTOR, 3D MARYLAND, MARYLAND CENTER FOR ENTREPRENEURSHIP

                  STATEMENT OF PATRICK O'NEILL

    Mr. O'NEILL. Chairman Graves, Ranking Member Velazquez, and 
members of the Committee, I am Patrick O'Neill, CEO and founder 
of olloclip, the mobile photography company. I invented the 
olloclip, a clip-on lens for the iPhone. I am very grateful for 
the opportunity to speak with you regarding our use of 3D 
printing and how it has helped a small business go from a 
kitchen startup three years ago to selling a product in every 
Apple store worldwide.
    In have spent my whole career in the technology industry. I 
hold over 30 patents, and 3D printing has enabled us to 
innovate at a rapid pace. This pace is required for us to be at 
the forefront of mobile technology, as well as keep jobs in 
America.
    In creating the olloclip, I wanted to create a photo lens 
that would give people the ability to use the iPhone to capture 
photos artistically, creatively, and spontaneously. The 
olloclip design was inspired by the philosophies of Steve Jobs, 
founder of Apple, and Colin Chapman, the English founder of 
Lotus cars, for clean, simple designs.
    Since the start, we employed this ``simple and light'' 
design philosophy. At the beginning, when the design studio was 
in my kitchen, we used a local 3D printing company to produce 
hundreds of prototypes. I would ask myself, ``Would Steve Jobs 
think this product was good enough?'' The answer wound 
invariably be ``no,'' and we would keep refining it until we 
felt the result would meet Steve's demanding standards.
    After a year of development, we launched olloclip through 
the Kickstarter crowdfunding platform in May 2011. Olloclip 
received funding within four weeks from backers in more than 50 
countries and achieved almost five times our funding goal.
    Since our start three years ago, we have moved three times 
to larger offices, and now employ more than 50 people in 
Huntington Beach, California, including seven full-time 
designers. Today, olloclip is considered the leader in mobile 
photography products. Olloclip products are now sold in more 
than 90 countries.
    The olloclip has attracted a legion of passionate users and 
received numerous awards. I am also fortunate, as you 
mentioned, to be named ``Entrepreneur of the Year'' by 
Entrepreneur Magazine. 3D printing enabled me to innovate 
quickly and turn my idea into a commercial product. Design and 
3D printing are still the core of our development. In just the 
past six months, we created six new products to enhance our 
line of photography tools thanks in part to 3D printing. We 
have invested more than $50,000 in 3D printing to prototype our 
own products.
    We also print models of rumored devices, so lenses can be 
designed quickly each time Apple releases a new version. We 
sketch an idea in the morning, model it in the afternoon, send 
it to the 3D printer and have a prototype that evening. Fast 
turnaround is key for companies in this space. We finished and 
validated an iPhone 5 version within days of the device's 
announcement. I cannot imagine doing this without our own 3D 
printer.
    Here is the process of developing our products. We first 
start with brainstorming and concept generation. Then, sketch 
ideas and create cab models of those ideas in the computer. 
Then, print the models on the 3D printer. Next, we evaluate the 
prototype for functionality, proportions, and aesthetics. 
Changes are made, if needed, and then reprinted. If the 
prototype is approved and everything looks good, we move 
forward to mass production.
    The mobile device market changes so quickly. To stay 
competitive, we use the 3D printer every day to develop new 
ideas. We have found it is the best way to innovate quickly and 
get to market faster. We can now develop products in a week or 
two. Without 3D printing it could take months for development. 
As Apple launches products, we would miss critical launch time 
and market opportunities. This could result in a potential loss 
of millions of dollars of sales, perhaps even failure.
    Small and mid-sized companies like ours need the ability to 
compete on the world stage, especially in rapidly changing, 
innovation driven industries, like consumer technology. As 3D 
printing evolves, we would like to use it for bridge 
manufacturing to produce finished products so we can get to 
market even faster.
    At olloclip, we continue to think differently and are not 
afraid to try new things. We will only build products if we can 
innovate. 3D printing allows us to take more risks because it 
shrinks the opportunity cost. We are able to test and validate 
new designs within a day or two, rather than a month or two. If 
they are unsuccessful, we can quickly move on to try something 
else.
    Our success has come from our passion and perseverance, our 
ability to take risks, and blaze new trails when it comes to 
product innovation. As Congress and others consider policies 
that will apply to 3D printing, it will be important to ensure 
entrepreneurs like myself are able to continue using the 
technology in innovative ways.
    I am honored to be here today. Many thanks to Chairman 
Graves, Ranking Member Velazquez, and this Committee.
    Chairman GRAVES. Thanks, Mr. O'Neill.
    Our next witness is Jonathan Cobb, who is the executive 
vice president of Public Affairs for Stratasys, a global 
leading manufacturer of 3D printers. Mr. Cobb has served in 
several positions at Stratasys, including Executive Vice 
President of Global Government Relations and Global Marketing, 
and he serves as the company spokesperson. He has also held the 
position of vice president and general manager for the 
Dimension 3D printing business unit of Stratasys. Today, he is 
testifying on behalf of the National Association of 
Manufacturers.
    Welcome to the Committee.

                   STATEMENT OF JONATHAN COBB

    Mr. COBB. Thank you, Chairman Graves, Ranking Member 
Velazquez, and Committee members. Thank you for the opportunity 
to tell you about 3D printing and how our company, Stratasys, 
is helping small businesses grow and thrive in this economy.
    My name is Jonathan Cobb, and I am executive vice president 
for Stratasys, which is based in Eden Prairie, Minnesota.
    Stratasys is a member of the National Association of 
Manufacturers (NAM), and I am honored to testify on behalf of 
the organization. As the nation's largest manufacturing trade 
association, the NAM represents 12,000 small and large 
manufacturers in every industrial sector in every state.
    Manufacturers are the world's leading innovators and 
perform two-thirds of all private sector R&D in the nation, 
producing more innovative breakthroughs than any other sector. 
I am proud to say that 3D printing and Stratasys are part of 
this innovative American industry.
    You may be asking what is 3D printing and why should I care 
about it? Simply put, 3D printing is a process of turning 
digital blueprints into tangible objects within a matter of 
objects. It works by sending digital schematics to the printer, 
which then shapes very thin layers of plastic, metal, or other 
materials into physical objects.
    I brought a couple of samples that hopefully we can talk 
about a little bit later on if there are some questions.
    Although the concept may be new to many of you here today, 
this technology has existed for decades. 3D printers were 
originally created to help engineers test designs before 
spending money on expensive factory tooling for production. 
Today, 3D printers are not only just used to make prototypes; 
they are also used for low-volume manufacturing, items such as 
prosthetic limbs and interior components of aircrafts.
    3D printing is also found in the classroom. In fact, since 
2002, nearly one-quarter of Stratasys's business has been in 
education. By helping students learn design and manufacturing 
through 3D technology, we are hoping build a strong hiring pool 
for businesses in America.
    This brings up an important point. 3D printing will not 
replace traditional manufacturing process. It will serve as 
another tool in a toolbox for manufacturers, to deliver 
products to markets in efficient and customized ways.
    Stratasys was started in 1988 and has been growing ever 
since. In 2005, we started a separate business unit called 
RedEye, which is a service that can produce 3D printed parts 
for those who do not own a 3D printer. We also acquired 
Solidscape of Merrimack, New Hampshire, which helps jewelry 
designers and dental markets adopt 3D solutions.
    Last year, we merged with Brooklyn-based MakerBot, a 3D 
printing company whose user-friendly products are designed for 
prosumers and entrepreneurs with basic technical skills.
    The growth of our business has helped others as well. When 
musician Chris Miles was performing at events with his band, he 
used a popular credit card reader to process payments when he 
sold his CDs. The credit card reader plugged into his laptop, 
but he found that the reader tended to swivel or spin when 
used, instead of remaining stable. That made it sometimes 
difficult to use. Borrowing from his children's Lego pieces, 
Chris built an accessory that kept the card stable. With a 
successful design, Chris wanted to bring his new innovation to 
market. It would have been costly and inefficient using 
traditional production methods, so instead, Chris invested in a 
consumer-level 3D printer, which has literally become a factory 
on his desk, enabling him to produce his invention from home 
for a couple thousand dollars and sell thousands of them.
    We take pride in stories like this. To us, they demonstrate 
that we are not just a business of producing 3D printing 
machines; we are also helping empower entrepreneurs by bringing 
manufacturing into their homes and workspaces.
    Our presence here today shows that the interest in 3D 
printing is strong and the future is infinite. Our industry is 
experiencing rapid growth and is giving domestic manufacturing 
a new competitive edge in this global economy. The best thing 
Washington can do is to encourage further growth and 
investment. As President Obama noted in his recent speech 
touting 3D printing hubs, if we want to attract more good 
manufacturing jobs to America, we have to make sure that we are 
on the cutting edge. Our company could not agree more.
    I would like to thank the Committee for holding this 
hearing, and I would be happy to answer any questions that you 
have.
    Chairman GRAVES. Thank you, Mr. Cobb.
    Our next witness is Peter Weijmarshausen.
    Chairman GRAVES. Weijmarshausen, founder and CEO of 
Shapeways, the world's leading 3D printing marketplace and 
community. Prior to Shapeways, Peter was the chief technology 
officer at Sangine, where he and his team designed and 
developed satellite broadcast modems. He is also director of 
engineering at Aramiska, where he is responsible for delivering 
a business broadband service via satellite. He was born and 
raised in the Netherlands and moved to New York in 2010.
    Thanks for being here.

               STATEMENT OF PETER WEIJMARSHAUSEN

    Mr. WEIJMARSHAUSEN. Good afternoon, Mr. Chairman, and 
members of the Committee. My name is Peter Weijmarshausen. I am 
CEO and cofounder of Shapeways. I am honored to be here today 
to discuss how 3D printing is fueling small business growth, 
enabling anyone to create a business with physical products at 
low capital costs.
    As a kid in the Netherlands, I loved coding and playing 
with computers, resulting in a passion for open source 
software. Driven by this and my entrepreneurial spirit, I spent 
much of my early career at various software startup companies. 
One of these was Blender, the first company to publish a free 
3D modeling software. This turned out to be important.
    In 2006, much later, I learned about the technology called 
3D printing, which prints physical objects based on 3D computer 
designs.
    I immediately thought of the Blender community, a large 
group of 3D modeling enthusiasts. They, like other designers, 
were using 3D software, but never imagined it would be possible 
to hold their own designs in their hands. So I asked some of 
them for their designs to print, and when I showed the 3D 
printed ``products'' to them, they were completely blown away. 
They immediately agreed it was a good idea to build an online 
service where people could print their 3D designs, and I knew 
there could be a business opportunity. How big was yet to be 
seen.
    I started working at Shapeways in March 2007, with in the 
Lifestyle Incubator of Phillips Electronics, who shared the 
vision that 3D printing could be very disruptive. At the time, 
3D printing was used mostly for prototyping by large companies 
and was very expensive.
    By 2008, we launched Shapeways.com to enable anyone to make 
and get products they want. We started 3D printing products, 
not prototypes.
    In 2010, we spun Shapeways off as an independent company 
and moved their headquarters to New York City. New York is 
perfect for Shapeways, providing us with high-caliber, tech-
savvy talents, who are hungry for innovative solutions. It is 
also the creative epicenter, so we have the ability to talk to 
so many of our customers and learn from them firsthand. At that 
point, we had fewer than 20 employees. Today, we have over 140, 
in New York, Seattle, and in our factories in Eindhoven and 
Long Island City. These factories are transforming old 
industrial hubs into factories of the future, with new and 
innovative processes and machinery.
    Shapeways is now the world's leading marketplace and 
community to make, buy, and sell custom, 3D printed products, 
unlocking design opportunities for entrepreneurs and creative 
consumers. Shapeways itself is already a success story in terms 
of a small business growing out of endless possibilities of 3D 
printing, but the opportunities created by 3D printing for 
entrepreneurs are immeasurable.
    When I think about what we can achieve, I relate it to how 
the Internet has enabled software engineers to become 
entrepreneurs. Before the Internet became mainstream, bringing 
new software to market was extremely difficult. You had to know 
what users wanted, build the software, test it, then produce a 
lot of CD-ROMs for floppy discs, bring it to retail, and hope 
that people would buy it.
    Today, using the Internet, any software engineer can become 
an entrepreneur. The Internet has removed the barriers. 
Launching a website has become incredibly easy, and this is one 
of the reasons why companies like Google, Amazon, and Facebook 
became successful so quickly.
    Similar to how the Internet removed barriers for software 
development, 3D printing is removing barriers for manufacturing 
products. Designers can create their products, have them 
printed with little cost; create and update their designs 
quickly so there is no need for marketing research in advance; 
build products without costly upfront payments for 
manufacturing or molds; and distribute their products direct 
online, with no retail investment. Plus, they can continuously 
evolve their products since they do not have to keep any 
inventory.
    There is no question that entrepreneurs are taking notice. 
From 2012 to 2013, product uploads increased from 40,000 per 
month to 100,000 per month, and the number of new people 
creating products on Shapeways has doubled.
    3D printing transforms how we think about launching 
products and enables the garage entrepreneur in ways we could 
never conceive of in the past.
    To understand this in detail, let me quickly share with you 
how Shapeways works. Anyone can upload a 3D design to 
Shapeways.com. There are many free and open source software 
programs available to use for 3D modeling, so literally anyone 
can do it. After the design is uploaded, the user selects the 
material in which to print and make it available. Shapeways 
offers over 40 materials and finishes, including precious 
medal, bronze, ceramic, plastic, and full-color sandstone. 
Designs are reviewed by our engineers. They are then uploaded 
to our printers, and then they are printed, after which they 
are cleaned by the engineers, sorted, and put in the boxes and 
sent to anyone.
    On-demand 3D printing as described above is at the core of 
Shapeways. People have used it to create endless types of 
products for their hobby or business, including model trains, 
jewelry, funny Internet memes, home decor such as lamps, 
dishware, cups, plates, et cetera. I have brought a few samples 
as you can see over here.
    Let me share one of the examples of a successful business 
on Shapeways. GothamSmith is an example. Four friends who were 
working in creative industries in New York City wanted to 
create something more tangible and lasting than a website or 
app. Starting with designing cufflinks and eventually into 
other jewelry, GothamSmith used 3D modeling applications to 
develop unique ideas. Shapeways gives them the ability to 
quickly turn these ideas into physical prototypes and then 
final products at scale, without relying on large and costly 
metal casting machinery. They sell their products on 
Shapeways.com directly or through other channels and are 
emphatic that their business would not exist without Shapeways 
or 3D printing.
    The ability to easily create one-of-a-kind, customizable 
products is another phenomenon spurred by 3D printing. An 
otherwise extremely costly and labor intensive process, 3D 
printing and Shapeways make it seamless. One company that is 
leveraging the technology is called Nervous Systems, a design 
studio that uses a novel process, creating computer simulations 
inspired on natural phenomena such as the growth of coral. 
Their process generates products such as jewelry and light 
fixtures. All of these products are one-of-a-kind and 3D 
printed by Shapeways, sold on our site, and multiple retail 
channels, including the MoMA Store in New York. They are 
another example of a successful business that is rapidly 
growing and employing more people every day as demand grows.
    I would like to conclude with the fact that even the 
president of the United States has acknowledged that this great 
opportunity. Shapeways is working with the White House to 
partner on the first ever White House Maker Fair, dedicated to 
showcasing and celebrating the Maker movement. The goal is to 
support a culture of making, and use it as a call to action for 
stakeholders, and Shapeways has committed to help the White 
House use this moment in time to facilitate entrepreneurship.
    And, in his State of the Union last month, President Obama 
spoke about a facility in Ohio, saying that a once-shuttered 
warehouse is now a state-of-the-art lab where new workers are 
mastering 3D printing, which has the potential to revolutionize 
the way we make almost everything.
    It is true. 3D printing does have the potential to 
revolutionize the way we make everything. I am passionate about 
helping others see that, and I hope that I have effectively 
demonstrated to you the positive impact I can have on small 
businesses, creating many jobs in the future.
    Moving forward, it will be critical that accessibility to 
3D printing remains uninhibited.
    Thank you for your time today and allowing me the honor of 
speaking about 3D printing, a technology that I am sure will 
change the world.
    Chairman GRAVES. Thank you, Peter.
    Our next witness today is Jan Baum, who is the director of 
3D Maryland, which has been charged with bringing the 3D 
printing and rapid technology agenda to the Greater Baltimore 
region. Ms. Baum is also a full professor at Towson University 
and the founder of the university's Object Lab, a 
comprehensive, state-of-the-art rapid technologies and digital 
fabrication lab. In 2012, Ms. Baum cohosted the first Rapid 
Tech and Additive Manufacturing Conference in the Greater 
Baltimore region, and in 2013, was named Innovator of the Year 
by the Maryland Daily Record.
    Ms. Baum, thanks for being here.

                     STATEMENT OF JAN BAUM

    Ms. BAUM. Chairman Graves, Ranking Member Velazquez, and 
Committee members, I am honored to have the opportunity to 
speak with you about technologies that are significantly 
impacting how we carry out our work across industries. From 
product development in manufacturing to skull surgery and 
bioengineering, 3D printing gives us new capabilities that 
alter how we compete in an increasingly global marketplace.
    I would like to start with a real-world example. I am the 
executive director of 3D Maryland, a statewide leadership 
initiative to advance the engagement and implementation of 3D 
printing and additive manufacturing as an innovative, economic 
driver for Maryland, but also for America. 3D Maryland is 
located within the Maryland Center for Entrepreneurship, which 
is a business incubator in Howard County, Maryland. Within two 
weeks of a new client joining the Maryland Center for 
entrepreneurship, he sought me out and he said, ``I hear you 
are the 3D printing person.'' I said, ``I am.'' And he started 
telling me about his product that he was innovating and wanting 
to prototype and how he had sent $2,500 to China and had not 
heard anything and could I help. And I said, ``Well, when do 
you need your prototype?'' And he said, ``Yesterday.'' And I 
said, ``Well, send me the 2D drawings and I will see what I can 
do.'' He promptly did, and I immediately turned them around, 
had the 3D digital files made, and two days later, hopeful, he 
knocked on my door to check the progress, I am sure not 
expecting what he found. He put his head in the door and I 
pointed to the build platform on the 3D printer across my 
office. He looked at his prototype sitting on the build 
platform, looked at me, looked back at the printer, looked at 
me speechless, and I said, ``That is your prototype.'' And he 
looked at the printer, and looked back at me, and he said, 
``This is like magic.''
    Well, it is not magic, but it is a tool that helps us do 
our work better, more efficiently, locally, and many times, 
most times, faster with optimized solutions across industries, 
whatever work it is we are carrying out.
    3D printing and additive manufacturing is a disruptive 21st 
century technology. It is changing the who, why, when, why, and 
importantly, the what of what we make and how we solve 
problems. If we can imagine it and we have got the skill to 
design it, the 3D printers will print it. We are making things 
we could have never made before. And there are tons of examples 
on the table here today. It is disrupting economies of scale, 
current business models, and democratizing production across 
industries. Innovation and entrepreneurial opportunities are at 
the heart of this technology.
    There are some barriers to engagement. Access to knowledge, 
both trusted knowledge sources and understanding what the 
technology can and cannot do. Overcoming industrial-era 
thinking is a huge one. We have made things subtractively for a 
very long time and we are very good at it.
    Cost of entry. The allocation of resources, whether capital 
or human, is a challenge for small businesses and 
entrepreneurs? And then the position of the technology. Are we 
there yet is a question that we all receive regularly.
    The leadership of Howard County in Maryland, county 
executive Ken Ulman, the Howard County Economic Development 
authority CEO, Larry Twele, and the executive director of the 
Maryland Center for Entrepreneurship are a very strong 
leadership team for Howard County, and they very easily saw the 
vision and the opportunity that these technologies brought and 
how it fit in with and supported small business and the 
entrepreneurial ecosystem.
    3D Maryland itself is an innovative and entrepreneurial 
initiative addressing barriers to entry and advancing the 
business advantages of 3D printing for business, industry, and 
entrepreneurs. Those are our target audiences. We are raising 
awareness and facilitating engagement and implementation. 3D 
Maryland is identifying and addressing opportunities to 
strengthen and advance the rapid-tech ecosystem in Maryland, 
and we are building a loosely coupled system of collaborative 
relationships and partnerships across sectors to innovate and 
accelerate the region and the country's economic 
competitiveness.
    I respectfully recommend that this Committee encourage and 
support initiatives such as 3D Maryland that have a focus on 
multi-sector, cross-disciplinary, pre-competitive 
collaboration. Building on the strengths and core competencies 
to advance current practices, foster innovation, and grow 
regional ecosystems while taking advantage of public funding 
sources.
    Supporting initiatives like 3D Maryland builds on the 
momentum created by recent initiatives, such as the National 
Additive Manufacturing Innovation Institute. Addressing and 
creating an adaptive workforce at all points on the spectrum is 
also critical to our engagement of these technologies. I would 
recommend working at the grassroots level locally with users 
with proven track records from both industry and education so 
we can institute some changes in K-16, vocational training, and 
apprenticeship programs, retraining programs, et cetera.
    Wider adoption is inevitable. We need to ensure that the 
workforce is prepared to increase engagement. Studies have 
shown that students who are educated in additive manufacturing 
processes are among the first to bring the advanced hands-on 
technologies to their employers, and that is something that I 
have told my students at Towson University since I established 
that lab. You are workforce leaders. Continuing to support 
research funding and programs that facilitate technology 
transfer, 3D printing, and additive manufacturing are just 
getting started.
    I thank you very much for your attention and your 
consideration of these technologies.
    Chairman GRAVES. Thank you very much. We will recess just 
until after this series of votes.
    How many are there? Three?
    And then we will come back and start with questions.
    The Committee is in recess.
    [Recess]
    Chairman GRAVES. We will go ahead and call the hearing back 
to order, and we will start questions with Mr. Luetkemeyer.
    Mr. LUETKEMEYER. Thank you, Mr. Chairman. And thank all the 
panelists for a very impressive testimony. It is interesting 
stuff. I know on the way over to votes a while ago I was 
talking to Mr. Bentivolio here who has got some experience in 
your field, and it is fascinating to talk about the 
possibilities and what all you are doing. So as a small 
business guy it is very rewarding to see the entrepreneurial 
aspect of this and see that folks are really doing some good 
stuff.
    One of the concerns that I have is getting startups like 
what you do, and because it is a rather new product and new 
process from the standpoint of not widely used, I guess, are 
there regulatory problems that we need to be aware of here in 
Congress that we need to put a stop to? Are there ways that we 
can enhance your ability to do your job better? Just go down 
the line of whoever has got some comments or concerns about it. 
Everybody has got concerns about Washington these days. Trust 
me. And rightly so.
    Mr. O'Neill, do you want to start? Have you got any 
problems with us?
    Mr. O'NEILL. I do not yet have any problems with you.
    Mr. LUETKEMEYER. Not yet. Key word ``yet''; right?
    Well, obviously, the healthcare law is something that 
concerns a lot of small business people, and you are at that 50 
if I recall.
    Mr. O'NEILL. Yes, we are.
    Mr. LUETKEMEYER. So that may be a concern to you. But from 
the standpoint of producing your products, that is the kind of 
regulations I am thinking about right now.
    Mr. O'NEILL. I figure if we just keep working hard, 
designing great products, and making money, everything else 
will figure it out.
    Mr. LUETKEMEYER. So far you guys are so far ahead of 
regulations that you have outrun them, so therefore, you are 
probably okay for a while until somebody figures out, well, we 
need to stop these guys and regulate them. So we have to make 
sure that does not happen.
    Mr. O'NEILL. No, I do not want that to happen. I mean, our 
feet have not hit the ground. We shipped our first order to 
Apple out of our house less than three years ago, and you know, 
now we keep moving. We have got a 17,500 square foot facility 
now and that is not big enough. We need to get a bigger one.
    So I understand that there are some complications, and I 
let other people in our business worry about those things. That 
is probably why I do not seem concerned. I am sure I should be, 
but----
    Mr. LUETKEMEYER. You hire people to worry for you; right?
    Mr. O'NEILL. I really do, because I do not like to worry.
    Mr. LUETKEMEYER. I understand.
    Mr. Cobb?
    Mr. COBB. Thanks.
    Yeah, if you go back to the beginning of Stratasys, which 
really started, like I said, in 1988, we have shipped about 50 
percent of our business overseas, and we continue to do that at 
this point in time. It has been a big piece of our business. So 
if you look at areas that we are concerned about or could be 
concerned about, it would be any export laws that would 
restrict this technology from moving out from the U.S. I mean, 
if you look at the bulk of our business, we manufacture in New 
Hampshire, we manufacture in New York, and we manufacture in 
Minnesota. And so all these products are being exported. So 
anything that would harm that export----
    Mr. LUETKEMEYER. At this point there is no problem then 
here? That is not a barrier yet?
    Mr. COBB. It is not a barrier yet, but I know there has 
been some discussion about that. So since I had the opportunity 
to address the question, yes.
    Mr. LUETKEMEYER. Flake stuff here so we can be watchful for 
that. I mean, that is the purpose of the hearing today, to make 
sure that we know those things ahead of time.
    Mr. Weijmarshausen?
    Mr. WEIJMARSHAUSEN. Well, we are not really concerned about 
things that are currently in place but there might be something 
that you could help, however, think of. Shapeways has a large 
community of designers that make their own ideas come to life 
using our platform. They upload them to our sight and then they 
have them printed and we ship it back to them. And the other 
element of Shapeways is that we enable people to open shops 
where they can start selling these products. And I brought a 
few that you can see right in front of me.
    Now, if some of these products currently infringe 
copyrights, which very rarely, but it does happen, then the 
DMCA gives a very nice process where the copyright holder can 
send us a notice, we take down the product from our website and 
the story or the discussion then is between the copyright 
holder and the person that is allegedly the infringer. And that 
process kills very well. You have to realize we have 400,000 
community members, and that is growing very quickly. We get 
100,000 new designs every month. So these numbers are really 
large. And DMCA helps with the copyright end of the spectrum.
    However, there is no such process for patents. So if 
someone would infringe a patent, there is no clear process akin 
to the DMCA that would enable the patent holder to notify us so 
we can take it down, and then the discussion becomes between 
the copyright or the patent infringer and the patent holder. In 
that case, platforms like Shapeways are party to the 
discussion, which, of course, is really hard for us because we 
get so many new designs that it is completely impossible for us 
to check. Also, given the fact that in most cases we only print 
things once, for us it is completely impossible to check 
whether there are patent infringements going on at the time.
    So, of course, we are open to build compelling technology 
to help solve this, but since the DMCA works so well for 
copyrights, I would suggest maybe think about having a similar-
type process for platforms like Shapeways--and there are others 
coming up as well in the United States and also abroad--to have 
such a process that can help these platforms stay scalable and 
flexible.
    Mr. LUETKEMEYER. Do you have disclosure statements that you 
have to sign whenever you are sent a drawing of some kind by an 
individual or a company that says if you produce this object 
that you are restricted from showing it to anybody else or 
anything like that?
    Mr. WEIJMARSHAUSEN. So the idea about Shapeways, since it 
is a community, is openness. However, our terms and conditions 
do ask people, do you own the copyrights? Do you own the rights 
to use this product and upload it to Shapeways, for one. Do you 
have the rights to have it manufactured for yourself? And do 
you have the rights, if you want to, to sell it to others? And 
people have to state that they have those rights, of course. 
However, some people might not read that.
    Mr. LUETKEMEYER. Very good.
    My time is up, otherwise, I would let Ms. Baum answer. 
Thank you.
    Chairman GRAVES. Mr. Bentivolio?
    Mr. BENTIVOLIO. Thank you, Mr. Chairman. Thank you for 
coming in.
    Yes, we had an interesting discussion on the way to votes 
about the possibilities of 3D printing, and I explained to my 
colleagues that I was a vocational education teacher as well as 
general ed and was in the automotive design business for almost 
20 years. And I am very familiar with 3D printing and proud to 
say that many of my female students went on to Case Western to 
study biomechanical engineering because of CAD and some of the 
things they got to make in my classroom using a 3D printer from 
Fair State University. At the time, we just sent the design to 
them. They printed it for like $35. They sent it back in a nice 
package. Instead of putting something on the refrigerator door, 
``Hey, mom and dad, look what I did in class,'' they got to put 
it on a table, which was kind of interesting.
    But in that regard, I am wondering, the possibilities, we 
are looking at some things like, for instance, one of my 
questions is if I could scan something, can I digitize that and 
have it made; right? So, for instance, hip replacements, that 
kind of thing, could I use an X-ray data and convert it to 
digital and then have a custom made hip for a patient if I was 
a doctor? And there are some regulations that would have to 
come with that, too; right? I mean, it has to be sterile, made 
from specific material? So we could do that with bone as well. 
If somebody crushed a bone, we could replace that using a 3D 
printer. And how long would that take, for instance? I am not a 
doctor so I could not even name a bone in my wrist.
    Ms. BAUM. Both of those examples are a current practice 
today, so most of that--to my understanding, most of that work 
is being done abroad in Germany and Sweden. Arcam is one of the 
OEMs in Sweden who is producing hip replacements. And right 
now, while we can take the personalized data from a CT scan or 
an MRI scan and we can digitize that, we can build that into a 
3-dimensional model, my understanding is right now what we are 
doing is creating those hip replacements in small, medium, 
large, three or four sizes, because that does the job and does 
the job most effectively. I may not remember the name of the 
university that is doing the bone planting--I think it is in 
Texas--that are growing bone structures, but biomedical 
engineering is huge.
    I mean, what I would say is I would share with you that at 
Johns Hopkins University there is as skull surgeon there by the 
name of Dr. Amir Dorafshar and he uses 3D printing to create 3D 
prints to do pre-op planning. So they know before the team ever 
goes into the operating room exactly what the cuts are, what is 
removed, where the staples are. Everything is done in order to 
simplify that process. I think that is fantastic. The doctor is 
working less hours in a stressful situation, the patient is 
under anesthesia less time, and the operating room costs are a 
huge contributor to healthcare costs, and that is lower. This 
is disruptive technology.
    Now, that is going to upset the apple cart in many 
directions, so the business model for hospitals is now going to 
be disrupted. They may not be so happy about operating room 
costs, operating room times being declined because now they 
have to go back and rework the numbers again. But healthcare, 
medical is one of the first industries to engage 3D printing 
and additive manufacturing.
    Mr. BENTIVOLIO. Great. For instance, if there was somebody 
that needed plastic surgery, a plastic surgeon could use the X-
rays and know where his cuts are going to be, know how he is 
going to repair the patient's face, if you will?
    Ms. BAUM. Absolutely. And they also use 3D printing for 
surgical guides. So they put the 3D print right on the 
patient's body and then they know the tool, they know the cut, 
they know the angle. It takes a lot of the guesswork out.
    And I would just also volunteer that in terms of what 3D 
Maryland is doing, one of our first initiatives or first 
activities was to create an expert user group, so to gather all 
the expert users in Maryland around these technologies and 
cross-pollinate them. And so the Applied Physics Lab is 
actually collaborating with Dr. Dorafshar to build robotics to 
make that surgery even better. To make it even smoother. We are 
also printing cells. And I am not sure again, like, who the 
doctor is that is printing skin, but they are printing skin 
during surgery from the patient itself. And when you print 
cells from a patient, you really limit the risk of rejection or 
the body rejecting whatever you are putting in it or on it.
    Mr. BENTIVOLIO. Okay. So now we have that. And it also 
reduces 3D printing prototype build time; correct? No longer 
are we doing the giant clay models; we can actually design 
parts, for instance, for a motorcycle. I could design 
everything on that motorcycle using a 3D printer, put it 
together, make sure it all fits, and probably reduce my build 
time and prototype costs to--do you have any numbers?
    Ms. BAUM. Well, when I see the case studies roll through 
and Jon can probably speak to this even more clearly, but when 
I see the case studies roll through and I go, okay, what am I 
going to present like a baseline, I think many times it is at 
least a third or a fifth of both the cost savings and the time 
savings.
    And then the other thing, too, is you have those savings 
but when you put those parts together and they are not quite 
right, you are not going back to square one; you are tweaking.
    Mr. BENTIVOLIO. So how long would it take--real quickly, 
how long would it take for me, for instance, once I have that 
information digitized and I am going to do the surgery, to have 
maybe a model that I can practice or look at, how long would 
that take to have that 3D print?
    Ms. BAUM. Really, those are hard questions because you do 
not know how much data, what the scale is, and scale is a 
factor. I would say from thinking about Dr. Dorafshar's skulls, 
and he uses SLA technology, I think those skulls probably take 
three or four hours.
    Mr. BENTIVOLIO. Three to four hours.
    Ms. BAUM. Maybe six hours. And what I am advocating for 
Maryland--I think it is a model that we could all look at--is 
that Maryland create a consortium-based model where we have 
state-of-the-art medical facilities so that Dr. Dorafshar can 
see a patient from shock trauma and then zip files right over 
to a local center and get them. We do not have to worry about 
FedEx anymore, and then we will start to really see 
improvements in the technology as well.
    Mr. BENTIVOLIO. And I started in the business, Mr. 
Chairman, when we took a body side molding on a car, sent it to 
the shop, and waited three months for a prototype model, and 
now we can get it done in a matter of hours. Right?
    Thank you very much. I really appreciate you being here.
    I yield back, Mr. Chairman.
    Chairman GRAVES. Mr. Collins?
    Mr. COLLINS. Thank you, Mr. Chairman.
    I am sorry I missed the opening part. I was caught up in 
another hearing, but thank you all for coming. So I may well be 
asking questions you answered, and if that is the case, I 
apologize.
    I will go back. I have a little experience in 3D. We have 
been using that for five or six years in one of my companies to 
make small-scale models of fairly complex machinery as part of 
our sales proposal. If it is a $6 million proposal, it is well 
worth delivering that, and maybe others are going to catch up, 
but early on we were the only one doing it. And there was a wow 
factor there. And when we got the order, everyone in the 
customer's company wanted another one. So it is great. It is 
great for a lot of things. We used it as a sales tool.
    I guess my question comes to, as this takes off, are there 
any quality control issues on repeatability and all the things 
you do in ISO and other quality things for repeatability, and 
CNC machines and whatever. I am a machine shop guy. Are there 
quality control issues? And once you get into production and 
out of prototyping? I am not sure who to ask, so if somebody 
wants to jump in.
    Mr. WEIJMARSHAUSEN. So since we are building hundreds of 
thousands of products on a yearly basis, and actually over 
100,000 a month now at Shapeways for our customers, we see 
these kinds of problems pop up. We make, for instance, very 
popular iPhone cases. And of course, for them to fit, and to 
make clear, Shapeways does not provide prototyping only, we 
print final products. My iPhone case that I use myself is 3D 
printed. And many other people buy from Shapeways just to get a 
unique iPhone case. But they need to be an exact fit. And since 
3D printing was used for a long time as a prototyping 
technology, there is definitely a need for technology to 
improve from a quality perspective, from a price, and even from 
a speed perspective to meet the needs of today's consumers. 
From a prototyping perspective, you always have somewhat of an 
option if the prototype does not come out right to do it again, 
but if you have a consumer who has a birthday party where he 
needs to bring a present, you have only one shot to get it 
right and get it out the door in time.
    So the technology has come a long way, and it is really 
great that we can make final products using 3D printing and 
enable so many people, but I think the technology is still, to 
my opinion, in its infancy and it will keep growing. As the big 
consumer market engages, there will be large jumps in how the 
technology will mature.
    Mr. COLLINS. So, you know, as you are layering this, you 
know, plastics I understand. I am sure powdered metals are 
probably being used. Some ceramics.
    Mr. WEIJMARSHAUSEN. Yes.
    Mr. COLLINS. Is that the place? And what happens when you 
get into the need for some really high alloy steel, stainless 
steels, et cetera? Is that like way out or is that never?
    Mr. WEIJMARSHAUSEN. We are printing in metals already, and 
several types. We print in silver, which is the same type 
quality that you would find in a jewelry store. We print in 
ceramics. We print in stainless steel, brass, bronze. We are 
adding other precious metals pretty soon. It is already 
possible.
    Mr. COLLINS. Carbon steel, too?
    Mr. WEIJMARSHAUSEN. Not yet.
    Mr. COLLINS. Okay. Is that coming, do you believe?
    Mr. WEIJMARSHAUSEN. Yes.
    Mr. COLLINS. Okay. So as this takes off, what is the 
thought on the cost? You know, today you have got a lot of 
machines running unattended. Labor cost is all but zero. You 
set a machine up and they just pop those out even in a dark 
factory. Is this similar? What would be the labor cost to make 
a part using 3D versus automated equipment today in a factory 
that the machine just does it without manpower?
    Mr. COBB. Sure. I think you look at where 3D printing is 
being utilized today. And as was mentioned before, it is being 
utilized in a manufacturing environment. Aerospace companies, 
automotive companies. A number of people are using 3D printing 
today. So I think where it makes sense is not the things that 
we are maybe thinking about where you are making tens of 
millions of bottle caps or something like that, but where it 
makes sense at this point in time is when you have a short 
production type of a run or maybe a custom run, or maybe 
something where because of regulations or other reasons the 
part is constantly changing. And so when you look at the cost 
of a piece part, the piece part cost you are going to get 
utilizing 3D printing is going to be more than say injection 
molding. However, you are not going to have to build that tool. 
So as a small business owner, a couple cases that were 
mentioned here today, you are not going to have that upfront 
cost, so you are also probably not going to have to have that 
upfront knowledge as well because you can design something, you 
can test it with a prototype, and then start printing that as 
your real part. So it is a little bit different as far as high 
volume versus mid to low volume, I believe.
    Mr. COLLINS. Thank you very much. My time has expired, so I 
yield back.
    Chairman GRAVES. Mr. Payne?
    Mr. PAYNE. Thank you, Mr. Chairman. I would like to thank 
the panel for their testimony today.
    With the rapid growth and accessibility of 3D printing, 
there is room for great innovation as has been stated. As many 
of you testified, 3D printing creates endless opportunities for 
entrepreneurs. However, with companies like MakerBot 
increasingly reducing the cost to own and operate 3D printers, 
do you feel eventually consumers will become their own 
manufacturers, making the services that many small businesses 
offer obsolete?
    Mr. COBB. Certainly, MakerBot and products like that really 
enable a lot of people to do work as far as design work and 
then some production-type of work that we were talking about. 
And I think for certain products, yeah, you could see where a 
product like MakerBot would actually be used in a home 
environment.
    I think though that where some of the big opportunities for 
3D printing comes in is really in the manufacturing process. As 
we talked about before, it allows current manufacturers to 
build things in a different manner, to customize things in a 
different way. So I think there are certainly some products 
that are absolutely geared toward that, but if you look at the 
use of 3D printing and all the different materials that are 
going on today, I think the bigger advances are going to come 
in the manufacturing area. And with that comes a whole area 
where students today or people that are in the workplace today 
are used to manufacturing in traditional methods. And so 
training of people that are currently employed or training of 
students to design utilizing 3D printing is one thing, but then 
to manufacture using 3D printing is vastly different. It is 
different than injection molding. But it can be used, in fact, 
and that is one of the big inhibitors I think in getting 3D 
printing into small and medium sized companies is because the 
characteristics of a 3D printer are different than the 
characteristics of injection molding, for instance.
    Mr. PAYNE. And on another note, I serve on the Homeland 
Security Committee as well, and the potential of creating 
weapons through 3D printing technology is a real concern. What 
is the possibility of someone coming along and creating a 
nondetectable firearm or some other harmful weapon using 3D 
printing technology?
    Mr. COBB. We have been staunch supporters of the plastic 
gun legislation that just got reenacted, I think, at the end of 
last year, as a matter of fact. So it is something that has 
been demonstrated at some point, but we have certainly been a 
supporter of the legislation that has taken place up to this 
point, looking at the restrictions on that opportunity.
    Mr. PAYNE. Okay. But couldn't someone potentially, not 
follow the guidelines and regulations for this type of product 
and create something that is not detectable and cause a 
problem?
    Mr. COBB. I am not an expert in it, but I think that you 
need some type of metal, either a bullet or the firing 
mechanism, for the firearm. So again, I am not an expert on 
that but from what I know I think it would be difficult.
    Mr. PAYNE. Okay. Thank you.
    Chairman GRAVES. Mr. Schweikert?
    Mr. SCHWEIKERT. Thank you, Mr. Chairman.
    It always makes me nervous when a technology like this is 
here in Congress because it means we are paying attention to 
you, and let us face it, when the bureaucracy pays attention to 
a technology, we often try to regulate it or screw it up. And I 
say this in the context of someone that believes one of the 
great successes of the Internet was the fact that it grew and 
grew and grew before sort of the bureaucratic mechanisms truly 
understood it and were able to slow down the investments, the 
capital, the creativity. So what is, whether it be 3D printing 
or even the thing that maybe you and I have not even found out 
to define yet, which may be the large scale or the high speed 
production of such, what is the systematic threat to the 
industry? Is it copyright? Is it the source files having patent 
litigation or copyright litigation chasing? Or is it those of 
us in government and the bureaucracy? If I came to you right 
now and said over the next decade this is one of the great 
disruptive technologies that is going to make us a more 
efficient society but we have to conquer these risks to that 
expansion, for each of you, start with Mr. O'Neill, what are 
the systemic risks to the technology?
    Mr. O'NEILL. Well, I am an entrepreneur, so I am not 
representing the manufacturers. We use the technology to create 
innovation in our own business. So these kind of questions do 
not really apply to us but I would sincerely hope that no 
legislation comes in that would restrict our ability to 
innovate.
    Mr. SCHWEIKERT. What about the discussion--I know we have 
all been running in and out so I have not heard--copyright?
    Mr. O'NEILL. Well, copyright is a concern to us as a 
copyright holder. And as a holder of 30 patents, I am concerned 
that people will infringe our patents and our designs and they 
will print them. And we have had that happen. I mean, we had 
that happen with Shapeways, but we worked with them and they 
were able to deal with it. But it is a concern. I mean, it 
seems like it is something that needs to be addressed but I am 
not sure it is a 3D printing specific concern because it is 
still IP is IP, whether it is 3D printed or it is made in some 
other way. And we have people in China that are making 
counterfeit products all the time of ours. And they are not 
doing that with 3D printing. They are doing it with traditional 
manufacturing.
    Mr. SCHWEIKERT. And Mr. Cobb, sort of the same. What is the 
systemic risk? And on the IP, I think there has been the 
discussion of saying, well, if I change just a bit of the 
source code, does that relieve me of a copyright?
    Mr. COBB. Well, I guess as a manufacturer, the laws in this 
country, you have the patent protection. From a manufacturer, 
what we do is we spend 10 to 12 percent of our overall revenue 
on trying to be more innovative, trying to stay ahead of things 
that are going to fall out as far as a patent goes. I think 
looking at--you talked about what can be an inhibitor. I think 
one of the things, and maybe it is a little off base here, but 
I think one of the things that will not help the industry as 
much as possible is people, young people and traditional 
workers not being educated in this technology. And I think it 
is a real opportunity at this point in time to have education 
at a high school level, at a grade school level, and even 
workers that are displaced because of manufacturing. I think 
manufacturing is starting to come back into the U.S., and I 
think 3D printing is a portion of that. And I think there is a 
real opportunity for the Federal Government to get more 
involved in training of new students and traditional workforce.
    Mr. SCHWEIKERT. But understand, as we get involved, there 
are also certain risk profiles that come with that.
    Mr. COBB. I understand.
    Mr. SCHWEIKERT. What would be a systemic risk to your 
business?
    Mr. WEIJMARSHAUSEN. Well, I already laid it out briefly, 
and as you mentioned, Shapeways is a platform, a service, so 
what we want to do is create as many products for people as 
they like and make it possible for them to create things that 
were not possible before, in that way democratizing how people 
think about products. Everybody can now make things instead of 
only big companies. But we are taking very serious the 
responsibility that we need to take that we can only make 
things that are original. And the good thing is Shapeways has 
made over 2.5 million products to date that the amount of 
products that we had to take down, the amount of products that 
we actually made using the printers that were infringing in 
hindsight were extremely small--like counting on one hand or 
two hands, less than 10 that we actually made. And that is, I 
think, a good thing. Because people grasp that they now can 
make anything they want. It is not the first inclination. 
Actually, the technology is much more expensive also than mass 
manufacturing, so it is much easier to copy something popular 
with traditional manufacturing technologies, as mentioned in 
China, perhaps, than you can do it on a 3D printer. But this--
yes?
    Mr. SCHWEIKERT. And forgive me because I know I am up 
against time. But academia has always an interesting world 
where it sits there where what is sort of in the public domain, 
what <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="29405a040451515169">[email&#160;protected]</a> 0:29:06xxx?? So you may have to navigate some 
more interesting discussion there.
    Ms. BAUM. Well, I guess my response to that question, it 
may bridge academic, it may not. I am an advocate of the 
technology for business, industry, and entrepreneurs. And what 
I hear from my expert users is one of the things that is going 
to hold the industry back or is holding the industry back is 
the proprietariness of both the hardware and the materials. So 
the expert users that I see using the technology in the most 
advanced way say to the OEMs, I do not care about your 
warranty. I want ``under the hood.'' And they will hire a 
third-party contractor that provides the warranty so that then 
they can put in any material they want and they can tweak the 
parameters. If you do not do that, then you are paying about 
$25,000 per set of parameters to be under the hood. And I know 
Peter agrees with me. Keeping the technology open, just like 
your example, your leading example of the Internet, we have got 
to keep it open. The U.S. is not a leader in this technology. I 
think the Western World is leading it.
    Mr. SCHWEIKERT. And I know I am way over time, so real 
quick. The code, the underlying code, proprietary to each 
manufacturer or sort of a common script?
    Ms. BAUM. Proprietary. The parameters that you run the 
machine on and the materials that you put into the machine.
    Mr. SCHWEIKERT. So if I were to hop online right now and 
want to start design and actually do some coding, and I am a 
decade old, out-of-date SQL programmer----
    Ms. BAUM. I am going to let Jon jump in on that one.
    Mr. COBB. Well, I think, if I understand your question 
correctly, the capability of sending a file----
    Mr. SCHWEIKERT. Well, how proprietary is the software for 
each manufacturer?
    Mr. COBB. Okay, the software to actually allow you to print 
a part?
    Mr. SCHWEIKERT. Correct.
    Mr. COBB. Okay. So I will answer two ways.
    The software that allows you to have access to the printer 
is common. It is called an STL file. Okay, and that is common 
to all the different companies that are out there. Then what is 
proprietary would be actually how the printer prints. Each one 
of them uses a variety of different technologies and 
parameters, so that would be proprietary, if that answers your 
question.
    Mr. SCHWEIKERT. Thank you. And Mr. Chairman, thank you for 
your patience with me. Thank you.
    Chairman GRAVES. Could each of you, you all brought a 
variety of things, starting with Mr. O'Neill, can you kind of 
tell us about what you have got in front of you, or show it 
off?
    Mr. O'NEILL. Sure. Well, as I said before, we have to bring 
products to market very quickly because the iPhone refreshes 
every year and it usually refreshes around September or 
October. So to get the products into the stores for the holiday 
season we have to be very quick. So whenever there are rumors 
on the Internet, we will take those rumors and take the 
specification and actually print a copy of an iPhone, a 3D one 
based on the rumors. And then we will print a product that 
would hold our lenses, a clip, to see how it fits, see how well 
it works, and evaluate whether we are happy with that. We will 
keep working on this all through all the rumors. Every time 
there is a new rumor we will do a new one, and we will do 
hundreds of designs of the product to get it right. So when 
Apple actually does release the phone, then we have got this 
product that we can put on there and we can test our lenses on 
the new device. We can test the fit and see how it is. And then 
if we are happy with everything, we send it out to 
manufacturing and have the tooling made so we can do injection 
molding. And then we are in production and that whole process 
takes about six to eight weeks.
    Chairman GRAVES. Mr. Cobb?
    Mr. COBB. Picking up on what Patrick was talking about, 
this particular part was a part that really gets the idea of 
taking a prototype into a realistic area. What we have done is 
utilized a printing process somewhat similar to an ink jet 
printer, but it gives you really the realism that you get from 
a part. And that is what a manufacturer or designer is looking 
for. In the particular process that we are using here called 
PolyJet, what it allows us to do is mix materials. So you have 
something very durable that is called a digital ABS, the white 
part, but at the same time you are printing this flexible 
material here as well. This was printed all as one part. Then, 
just recently, we introduced the capability of the multiple 
material and then we have also added color to that. So you can 
actually then print a very real--in this case it is a prototype 
shoe--but a very realistic prototype shoe that to most people 
coming in here looking at this, you would probably think it was 
the real thing.
    And then getting towards the idea of real things, this 
particular part is a different technology that we have called 
FDM or fuse deposition modeling. This particular technology 
takes real thermal plastic. So nylon, polycarbonates, ABS, and 
ULTEM, that are being used today in manufacturing, typically in 
injection molding process. But in this particular case, this is 
an ABS part that we are seeing here. This was printed, again, 
there were about 18 different components here. This was all 
printed in one particular piece. So from a prototyping 
standpoint, it allows you to look at a lot of different things 
that are going on because it is not just an individual part; it 
is an assembly. And this particular prototyping allows you to 
look at those assemblies testing for form, fit, and function. 
And then as you go a little bit further, you can also, because 
it is real thermal plastics, these are the types of materials 
that are being used in real life today for end-use parts in 
aerospace, automotive, some consumer goods.
    Mr. WEIJMARSHAUSEN. Well, I brought a variety of products. 
It is so hard to choose if there are so many people creatively 
active. So in my testimony I used an example of a design 
collected from New York called GothamSmith. They make men's 
jewelry. And these are cufflinks that are made in sterling 
silver designed by them and they are for sale on our platform 
and they also sell it in a different way. So that is one 
example.
    Another that is really cool is an indie game. So it was 
just almost an organic movement, crowd funded, the Kerbal Space 
Program. They made a little game and a very passionate 
community behind it, and a few guys figured out, hey, can we 
take our assets from the game and turn them into real things? 
So they uploaded it to Shapeways and I was working. So now this 
is people ordered them through pictures, went on the Internet, 
went viral, and everybody now wants to have them. Two very 
different examples.
    I mentioned Nervous Systems. They use algorithms, so they 
do not even design the products anymore by hand. There is no 
CAD software involved. They write computer codes that mimic 
nature. And by doing that they can create unique items all the 
time. This is an example of a lightshade with an LED light 
inside. And you can go on their website. You can go on 
Shapeways. You can find these products and they are for sale. 
And Ms. Baum has actually brought another product from Nervous 
Systems, which is a customizable necklace. And this is also 
from Nervous Systems. So you can see that it is a wide variety 
from jewelry to lighting fixtures to gadgets and game 
accessories. And I can keep going for hours but I will not.
    Chairman GRAVES. Ms. Baum?
    Ms. BAUM. Right now I am wishing I had selected my samples 
a little bit differently. I had some skulls sitting up here, 
and the face transplant model that Dr. Rodriguez did a year 
ago. The other thing that I wish I had brought is an example of 
3D printing with traditional metal plating over top of it. And 
so one of the companies in Maryland, Repliform, they plate 
specifically on 3D printed objects, extending the life of the 
plastic prints. And some of the work that they do is highly 
classified, but what is in the knowledge center at 3D Maryland 
is a one-tenth scale thruster that they made for Boeing, and 
those objects are really impressive.
    What I have in front of me are some soles, some prototype 
soles from Under Armour. Under Armour is an anchor business for 
Baltimore for sure. That is probably as much as I am able to 
say. I am close friends with Under Armour and frequently behind 
the door with them. So right now they are prototyping soles.
    This is a watch, and this is off of one of Mr. Cobb's 
systems, and it is the same idea of the gear shifter. So a very 
flexible material and very rigid material at the same time.
    This is an end-use product from Northrop Grumman, which is 
also located in Maryland, and this is an end-use part. So 
prototyping and use parts. And this is a metal-printed part 
that then had some post-production matching done on it.
    And then I guess I would just tag on with Peter about this 
little guy. This particular printer prints in full color. And 
we talk about entrepreneurs and we talk about the uses of the 
technology. If you take a 3D photograph of yourself or maybe 
your daughter or your grandchildren and you want to have that 
replicated into a doll, your kids can have dolls that look like 
them if that is what you want to do. Mixee Labs is doing the 
UK. Stanley Black and Decker, also located in Maryland, uses 
this to color code the parts of their tools as they put it 
through production. So orange is one division, green is another 
division, or they code the parts accordingly. And that is not 
an extra. That is just inherent to the technology.
    And the last sample that I have that I will talk about is 
this architectural model. And we are all probably old enough to 
understand that architectural models before 3D printing were 
made very painstakingly with X-Acto knives and map board, and 
today we can actually print the prototype of the building. And 
there is a saying in the industry that if a picture is worth a 
thousand words, a prototype is worth a thousand pictures. And I 
think as our society gets more and more visual, our literacy 
maybe declines a little bit, but we become more visual, that is 
more and more true.
    And then lastly in my testimony I included a really nice 
profile of a company in Baltimore by the name of Danko 
Arlington, and it is a traditional foundry. It is a wonderful 
American story. A 94-year-old family-owned business, three or 
four generations, and they started losing their pattern makers. 
And they said how are we going to solve this problem? They do 
not want to see this successful business change. And so they 
adopted 3D printing in 2010. They have a number of Stratasys 
machines, the highest machine that Stratasys makes, and they 
say that they win bids because they send a prototype of the 
object that they are going to create for the defense industry 
with the bid and that is how they get successful bids.
    Chairman GRAVES. You all bring up an interesting point, 
too. In terms of your different mediums that you print with, 
how does that translate into durability or strength or whatever 
the case may be? I will let any one of you answer that want to.
    Ms. BAUM. I am going to point the finger to Mr. Cobb 
because he has got the highest-end materials.
    Mr. COBB. The bulk of our business is in the thermal 
plastic area. I talked about the nylons and polycarbonates, 
ABS. And traditional manufacturing would be utilizing an 
injection molding process to bring those parts. We do not quite 
do that. We do not melt it and we do not put pressure into it. 
We actually use the layer technology that we all talked about 
in the past. And so the characteristics of that are different 
than the traditional injection molding.
    Now, we are using real ABS, real nylon, and real 
polycarbonate. There is a wide variety of manufacturers around 
the world; we just select one of those. So the difference is 
not in the material itself, but the difference is in the way 
the part is actually manufactured. And so when I was talking a 
little bit earlier, we talked about having the knowledge from a 
designer, the knowledge from a toolmaker, and the knowledge 
from a manufacturer to understand that a 3D printed part is, in 
our case, a real thermal plastic, but it is made differently 
than the traditional injection molding. Injection molding has 
been around for a long period of time. There is a handbook that 
really talks about injection molding, the principles, to make 
sure that you build a durable part. There is no such thing for 
3D printing or additive manufacturing today. And as the 
technology evolves, new materials evolve, and they are evolving 
every single day. Having that knowledge to understand the 
differences between an injection molded part in the case of a 
thermal plastic and a 3D printed part is going to be important 
in producing more and more parts for end-users because they can 
be used utilizing 3D printing. They are being used in 3D 
printing today. But it is a different design criteria. It is a 
different manufacturing method, and it is different.
    Chairman GRAVES. Let us say you do not have a drawing and 
you do not have, you know, you are just in the restoration 
industry, out of curiosity, can you take an existing or wore 
out part and create data points and then turn around and 
reproduce that? And how expensive is this for somebody to, like 
if they employ or call somebody, they obviously do not want to 
buy the technology themselves. They would just as soon have 
somebody do it for them. How expensive is it to create that 
part as a model to be able to fit up?
    Mr. WEIJMARSHAUSEN. So you can use scanning technologies 
that are getting more and more powerful today. And we actually 
were just at South by Southwest where we were scanning people 
at parties which was a big party hit. In the same way, you can 
take a part, and if it is still in one piece, you could scan 
it. Not all parts can be scanned, however. You need to be able 
to see all items of it. It is going to be very hard to scan 
this part Mr. Cobb brought with him, but more simple products 
you could very easily scan. And those scanners are getting very 
affordable. They turn the pictures basically they take into a 
model you can print and then you can print it in a wide variety 
of materials.
    To your point of questions around what does it cost, the 
scanners are available from a few hundred dollars up to like 
tens of thousands if you want to have high-end, professional 
stuff. The printing itself, again, depending on the material 
you want to use, items the size of an iPhone case would cost 
you $20-$30. Things that are getting bigger, they are $50-$100 
in plastics. If you talk about metal objects the size of this 
are around $100-$200. But this is like real stainless steel. So 
you can make things in silver, all kinds of materials based on 
scans if you wanted to for repairing stuff. And it has been 
done.
    Chairman GRAVES. So you can build up in metal?
    Mr. WEIJMARSHAUSEN. Sorry?
    Chairman GRAVES. You can build up in metal?
    Mr. WEIJMARSHAUSEN. Yes, metals are possible, just like 
ceramics and plastics. Yeah.
    Chairman GRAVES. Fascinating.
    With that I want to thank you all for participating today. 
And again, I apologize for the vote series that happened during 
the hearing, but your testimonies obviously helped us to better 
understand how 3D printing is spurring economic growth and 
creating a lot of opportunities, a lot of opportunities out 
there for entrepreneurs around the nation.
    With that, I would ask unanimous consent that all members 
have five legislative days to submit statements and supporting 
materials for the record. Seeing none, that is so ordered. And 
without objection, I would say the hearing is adjourned.
    [Whereupon, at 2:45 p.m., the Committee was adjourned.]
























                            A P P E N D I X




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Graves, Ranking Member Velazquez and members of 
the committee, I am Patrick O'Neill, CEO and founder of 
olloclip, the mobile photography company. I invented the 
olloclip lens, a clip-on lens attachment that takes fisheye, 
wide-angle and macro photos on the iPhone. I'm very grateful 
for the opportunity to speak with you regarding our use of 3D 
printing and how it has helped a small business go from a 
kitchen start-up three years ago to selling product in every 
Apple Store worldwide.

    I have 25 years of experience in the technology industry. I 
hold over 30 patents because 3D printing has enabled our 
innovation at rapid pace. This pace is required for us to be at 
the forefront of mobile technology as well as keep jobs in 
America.

    As an inventor of computer accessories for more than 25 
years, and smartphone accessories for the past 10 years, I've 
always wanted to develop a product that melded my profession 
with my love of photography. The iPhone lens idea percolated 
for years and was inspired by the philosophies of Steve Jobs, 
founder of Apple, and Colin Chapman, the English founder of 
Lotus cars, for clean, simple designs.

    When the first smartphone cameras came out, I thought 
wouldn't it be cool to put different lenses on those cameras. 
The problem was: how do you elegantly mount the lens on the 
smartphone? I then let that idea percolate for a few years. 
When the iPhone 4 launched, I felt the camera was great and 
could benefit from a lens.

    Designing the olloclip

    In creating the olloclip, I wanted to create a photo lens 
that would give people the ability to use the iPhone to capture 
photos artistically, creatively and spontaneously.

    Since the start, we employed a ``simple and light'' design 
philosophy. At the beginning, when the design studio was my 
kitchen, we used a local 3D printing company to produce 
hundreds of prototypes. I would ask myself, ``Would Steve Jobs 
think this product is good enough?''. The answer would 
invariably be ``no'', and we would keep refining until we felt 
that the result would meet Steve's demanding standards.

    Kickstarter

    After a year of development and hundreds of designs later, 
we launched the olloclip quick-connect, 3-in-1 Photo Lens 
through Kickstarter, a crowfunding platform, on June 6, 2011.

    olloclip received funding within four weeks from backers in 
more than 50 countries. We achieved almost 5x of our $15,000 
funding goal, finishing among the top-40 highest funded 
projects for that time period.

    Success

    Three years ago, we were a kitchen startup. Since then, we 
have moved three times to consecutively larger offices--and now 
employ more than 50 people in Huntington Beach, California, 
including seven full-time designers, allowing us to make our 
products in the United States.

    Today, olloclip has helped accelerate the transition of the 
smartphone as the primary camera. By providing mobile 
photography tools similar to those used for larger DSLR 
cameras, we have achieved phenomenal success in a short amount 
of time. olloclip has created a new category for mobile 
photography with award-winning products that are fun and easy 
to use.
    olloclip products are now sold in more than 90 countries 
and growing. The olloclip has attracted a legion of passionate 
users, and has received awards from WIRED Magazine, Mashable, 
and the Consumer Electronic Association to name a few.

    The ease with which it allows photographers to take 
creative shots and share them has also had a major impact on 
social media sites like Instagram, Twitter and Facebook.

    This past January, I was also fortunate enough to be named 
Entrepreneur of the Year by Entrepreneur Magazine.

    olloclip Product Development

    3D printing enabled me to innovate quickly and turn my idea 
into a commercial product.

    Design and 3D printing are still the core of our product 
development. In just the past six months, we created six new 
products to enhance our product line of mobile photography 
tools for Apple devices, thanks to 3D Printing. These include 
the new 4-in-1 photo lens system, macro 3-in-1 Lens, iPhone 5c 
3-in-1 Lens, Telephoto + Circular Polarizing Lens (CPL), the 
Quick-Flip<SUP>TM</SUP> case with Pro-Photo Adapter for iPhone 
and iPod touch, and the olloclip photo and video app.

    olloclip lenses clip on quickly and easily to the iPhone 
and iPod without any need for adjustment and the device's 
camera auto focuses normally through the olloclip to instantly 
capture photos or videos. Choosing the lens--fisheye, wide-
angle or macro lens--is as simple as flipping it over.

          Every olloclip photo lens is made of high-quality 
        components, including aircraft grade aluminum and 
        precision ground coated glass optics. The design is 
        clean and simple--and the product is half the size and 
        weight of the average car key. An olloclip photo lens 
        fits in a pocket making it a easy-to-use camera 
        accessory.

    olloclip and 3D Printing

    We have invested more than $50,000 in 3D printing, not only 
to prototype our own products, but also to create mock-ups of 
rumored iPhones so that lenses can be designed quickly each 
time Apple releases a new version.

    We can literally sketch an idea in the morning, model it in 
the afternoon, pop it in the printer and have a sample made 
that evening. Fast turnaround is key for companies in this 
space.

    We finished and validated an iPhone 5 version of the Apple 
product within days of the handset's announcement. I can't 
imagine doing this without owning our own 3D printer.

    The olloclip Process

    The process of developing our products starts here:

          1. Brainstorming, concept generation.
          2. Sketching of ideas.
          3. Modeling chosen concepts in the computer.
          4. Printing the concepts of the 3-D printer.
          5. Evaluating the prototype for functionality, 
        proportions, aesthetics.
          6. Making changes if needed and reprinting.
          7. Re-evaluating.
          8. If concept is approved and everything looks good, 
        move forward to mass production.

    3D Printing - Staying Competitive

    The mobile device market changes to quickly. To stay 
competitive, we use the 3D printer every day to develop new 
ideas. We've found that it's the best way to innovate quickly 
and get to market faster. What we can now create in week would 
have originally took 1-2 months for development.

    Without 3D printing, the more traditional model of 
designing and prototyping would take much longer and the 
process would slow us down considerably. As Apple launches 
products, we would miss critical launch timing and market 
opportunities. This could result in a potential loss of 
millions dollars of lost sales, perhaps even failure.

    Small and mid-size companies like ours need the ability to 
compete on the world stage--especially in rapidly changing, 
innovation-driven industries like consumer technology.

    Fending off Counterfeits

    Fending off counterfeiters is one of our challenges. Poorly 
made, fake counterfeits flood the markets. Thanks to 3D 
printing, we can keep our computer-aided design files in-house.

    Future of 3D printing with olloclip

    olloclip is thinking of investing in a new Conex3 printer 
that is 7x the cost of our current one. The printer will allow 
us to make more advanced prototypes in different colors, 
transparencies and material.

    As 3D printing evolves, my small business would like to get 
to the point w3here we can use it for bridge manufacturing. 
When we finalize a new design, it takes six to eight weeks to 
produce the tooling to do the injection mold. It would be nice 
to use 3D printing to deliver products in that in-between time, 
so we can get to market faster.

    Protecting Small Business

    At olloclip, we continue to think differently and are not 
afraid to try new things, and will only build products if we 
can innovate. 3D printing allows us to take more risks because 
it shrinks the opportunity cost. We are able to test and 
validate new designs within a day or two, rather than a month 
or two. If they are unsuccessful, we can quickly move on to try 
something else. Our success has come from our passion and 
perseverance, our ability to take risks and blaze new trails 
when it comes to product innovation.

    As Congress and others consider policies that will apply to 
3D printing, it will be important to ensure entrepreneurs like 
myself are able to continue using the technology in innovative 
ways.

    I am honored to be here today, and many thanks to Chairman 
Graves, Ranking Member Velazquez and this committee.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       TESTIMONY OF JONATHAN COBB


                               BEFORE THE


                     HOUSE SMALL BUSINESS COMMITTEE


       Hearing on: ``The Rise of 3D Printing: Opportunities for 
                            Entrepreneurs''


                             MARCH 12, 2014


    Chairman Graves, Ranking Member Velazquez, and Committee 
Members, I am excited to have this opportunity to speak with 
you today on behalf of the National Association of 
Manufacturers and to share with you some background on 3D 
printing innovation, its role in reviving America's 
manufacturing industry, and how our company--Stratasys--is 
helping other small businesses grow and thrive in this economy.

    My name is Jonathan Cobb and I am Executive Vice President 
of Corporate Affairs for Stratasys, which is based in Eden 
Prairie, Minnesota.

    Stratasys is also a member of the National Association of 
Manufacturers (NAM) and I am honored to testify on behalf of 
the organization. The nation's largest manufacturing trade 
association, the NAM represents 12,000 member companies 
consisting of small and large manufacturers in every industrial 
sector and state. As the voice of manufacturers who employ 12 
million men and women who work in manufacturing in America, the 
NAM is committed to achieving a policy agenda that helps 
manufacturers grow and create jobs.

    In 2012, manufacturers contributed $2.03 trillion to the 
economy; up from $1.93 trillion in 2011. This represents 12.5 
percent of our nation's GDP. Manufacturing supports an 
estimated 17.4 million jobs in the United States--about one in 
six private-sector jobs--and offers high-paying jobs. In 2011, 
the average manufacturing worker in the United States earned 
$77,505 annually, including pay and benefits--22 percent more 
than the rest of the workforce.

    Manufacturers are also the world's leading innovators. 
Manufacturers in the United States perform two-thirds of all 
private-sector R&D in the nation, leading to more innovative 
breakthroughs than any other sector. I am proud to say that 3-D 
printing and Stratasys are part of that innovative leadership 
in the United States.

    For many manufacturers in the United States, the economy is 
showing definite signs of improvement. Manufacturing has added 
about 600,000 jobs since the end of 2009, but it still has a 
long way to go. Manufacturing lost more than 2 million jobs 
during the past recession, and output remains below its 2007 
peak.

    Nearly 95 percent of all manufacturers in the United States 
have fewer than 100 employees, and the Small Business 
Administration (SBA) defines manufacturers with fewer than 500 
employees as small. To compete on a global stage, manufacturing 
in the United States needs policies that enable companies to 
thrive and create jobs. Growing manufacturing jobs will 
strengthen the U.S. middle class and continue to fuel America's 
economic recovery.

    Because of the significant challenges affecting 
manufacturing, the NAM developed a strategy to enhance our 
growth. The NAM Growth Agenda: Four Goals for a Manufacturing 
Resurgence in America, is a policy blueprint for the 
Administration and Congress that sets four goals with 
bipartisan appeal for enhanced competitiveness and economic 
growth: (1) The United States will be the best place in the 
world to manufacture and attract foreign direct investment; (2) 
Manufacturers in the United States will be the world's leading 
innovators; (3) The United States will expand access to global 
markets to enable manufacturers to reach the 95 percent of 
consumers who live outside our borders; and (4) Manufacturers 
in the United States will have access to the workforce that the 
21st-century economy demands. To achieve these goals, we need 
sound policies in taxation, energy, labor, trade, health care, 
education, litigation, and regulation.

    You may be asking yourselves: ``What is 3D printing and why 
should I care about it?''

    Well, quite simply, 3D printing--otherwise known as 
``additive'' manufacturing--is the process of creating a 
digital blueprint using Computer-Aided Design. These blueprints 
can also come from MRI, or scanned data. These digital files 
are then sent to the 3D printer, which builds them from the 
group up in very thin layers of plastic, metal, or other 
materials. The printing allows the creator to test for form, 
fit, and function.

    With 3D printing technology, a user can take a digital 
design and turn it into a solid, tangible part within a matter 
of hours.

    Although the concept may be new to many in this audience, 
the technology has actually existed for decades.

    Our company was started in 1988 after our founders, Scott 
Crump and Lisa Crump, developed and patented the Fused 
Deposition Modeling (FDM) process. Scott Crump remains active 
with the company and serves as the Chairman of the Board.

    3D printers were originally created to help engineers prove 
out their designs and perfect them before spending money on 
expensive factory tooling for production. This creates better 
quality products and allows companies to bring those products 
to market faster. Today, manufacturers are not just using the 
machines to produce prototypes. They are also using 3D printers 
for low-volume manufacturing of items from prosthetic limbs to 
the interior components of aircraft.

    This brings up an important point that is relevant for this 
Committee: 3D printing will not replace traditional 
manufacturing processes but, rather, it serves as another 
``tool in the manufacturing toolbox'' to complement how a good 
portion of manufacturers are delivering products to market in a 
more efficient and customized way.

    Like the internet in the 1990's and smart phones in the 
last decade, 3D technology is becoming highly accessible, and 
poised to usher in a new world of ``mass customization.''

    As the industry is changing, our company is changing as 
well. In 2005, we started a separate business unit called 
RedEye, which allows people to acquire 3D printed parts. We 
also added Solidscape of Merrimack, NH, which helps jeweler 
designers and dental markets adopt 3D solutions.

    Last year we merged with Brooklyn-based MakerBot, a 3D 
printing company whose user-friendly products are designed for 
entrepreneurs with basic technical skills. MakerBot's growth 
since its inception in 2009 has allowed more small companies to 
receive the true benefit of 3D printing.

    This growth in our business has helped other small 
businesses grow as well. When musician Chris Milnes was 
performing at events with his band, he used a popular credit 
card reader to collect sales proceeds for his band's CDs and 
merchandise. He loved the card reader, which plugged into his 
laptop, but he found that the product tended to spin when used 
instead of remaining stable, making it sometimes difficult to 
use. Using his children's Lego pieces, Chris built an accessory 
that kept the card reader stable. With a successful design, 
Chris wanted to bring this new innovation to market. But taking 
this prototype to production would have been costly and 
inefficient using traditional product methods. So instead, 
Chris invested in a consumer-level 3D printer, which has 
literally become a factory on his desk, enabling him to take 
his invention into production from his home for the cost of a 
couple thousand dollars.

    We take pride in stories like this. To us, they demonstrate 
that we are not just in the business of producing 3D machines, 
we are also helping empower entrepreneurs by bringing 
manufacturing into their homes and workplaces.

    Here's another small-business story, this time about a 
company that used a high-end Stratasys 3D printer to help get a 
product to market quickly and inexpensively.

    When South Dakota-based Peppermint Energy set out to make a 
portable, plug-and-play solar generator, they needed more than 
just a blueprint on paper to see their product take shape. 
Using a 3D printer, Peppermint produced a physical and 
functional prototype that helped them identify design flaws and 
make changes to the product quickly. By making these 
alterations with a 3D printer, Peppermint was able to save 
$250,000 on tooling costs.

    Despite the existence of 3D printing technology for 
decades, only in recent years has the priced dropped enough to 
allow a new class of low-price systems to become accessible to 
everyday consumers and entrepreneurs. With that in mind, the 
best thing Washington can do right now is help the industry 
reach its full potential by encouraging further growth and 
investment.

    Since 2002, nearly a quarter of Stratasys' business has 
been in education. By helping students learn design and 
manufacturing through 3D technology, we're helping schools 
build a strong hiring pool for businesses in America.

    The NAM, Stratasys, and all manufacturers are working to 
address the need for a skilled workforce and therefore are 
focused on a number of STEM initiatives. Stratasys, in 
particular, is a strong supporter of the STARBASE program, a 
STEM educational initiative that engages students--mostly 4th 
and 5th graders from inner city schools--in an intensive, five-
day program in science, mathematics, and technology. STARBASE 
features a ``Mission to Mars'' theme that allows students to 
create a Mars colony. During the program, students get the 
greatest excitement and value from learning about a design 
concept in the classroom and turning that into reality by 3D 
printing several variants of their own tailfin design for a 
rocket that is launched on a field. Students also experience 
first-hand the results of each set of tailfins and how they 
affect the rocket flight stability, trajectory, and height. It 
is a powerful and moving experience for young students, and for 
many, it can be an epiphany that they too could pursue an 
engineering career. This program relies on federal grants and 
we believe Congress should continue supporting STEM initiatives 
that will help grow and develop the next generation to lead the 
3D printing revolution.

    As you can tell from our presence here today, the interest 
in 3D printing is strong and the future is infinite for this 
technology. Despite our industry's long history, we are 
experiencing rapid growth that is giving domestic manufacturing 
a new global competitive edge. As President Obama noted in this 
recent speech touting additive manufacturing (3D printing) 
hubs, ``If we want to attract more good manufacturing jobs to 
America, we've got to make sure we're on the cutting edge.''

    Our company could not agree more.

    This is an industry that was started in the United States 
and is dominated by domestic businesses. We must continue to 
grow, innovate, and lead in this area.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Good afternoon Mr. Chairman and members of the Committee. 
My name is Peter Weijmarshausen and I am the CEO and Co-Founder 
of Shapeways. I'm honored to be here today to discuss how 3D 
printing is fueling small business growth, enabling anyone to 
create a business with physical products at low capital costs.

    As a kid in the Netherlands, I loved coding and playing 
with computers, resulting in a passion for open source 
software. Driven by this and my entrepreneurial spirit, I spent 
much of my early career at various software startup companies. 
One of these was Blender, the first company to publish free 3D 
modeling software.

    In 2006, I learned about a technology called 3D printing, 
which prints physical objects based on 3D computer designs.

    I immediately thought about the Blender community, a large 
group of 3D modeling enthusiasts. They, like other designers, 
were using 3D software, but never imagined it would be possible 
to hold their own designs in their hands. So, I asked some of 
them for their designs to 3D print. When I showed the 3D 
printed ``products'' to them, they were blown away. They 
immediately agreed that it was a good idea to build an online 
service where people could 3D print their own designs. I knew 
that there could be a business opportunity, but how big was 
still to be seen.

    I started working on Shapeways in March 2007, within the 
Lifestyle Incubator of Philips Electronics, who shared the 
vision that 3D printing could be very disruptive. At the time, 
3D printing was used mostly for prototyping by large companies 
and was very expensive.

    By 2008, we launched Shapeways.com to enable anyone to make 
and get the products they want. We started 3D printing products 
NOT prototypes!

    In 2010, we spun Shapeways off as an independent company 
and moved the headquarters to New York City. New York is 
perfect for Shapeways, providing us with high-caliber, tech-
savvy talent, who are hungry for innovative solutions. It's 
also the creative epicenter, so we have the ability to talk to 
so many of our customers and learn from them firsthand. At that 
point, we had fewer than 20 employees. Now, Shapeways has more 
than 140 employees who work at offices in New York and Seattle, 
and in our factories in Eindhoven and Long Island City. These 
factories are transforming old industrial hubs into factories 
of the future, with new and innovative processes and machinery.

    Shapeways is now the world's leading marketplace and 
community to make, buy, and sell custom, 3D printed products, 
unlocking design opportunities for entrepreneurs and creative 
consumers. Shapeways itself is already a success story in terms 
of a small business growing out of the endless possibilities of 
3D printing. But, the opportunities created by 3D printing for 
entrepreneurs are immeasurable.

    When I think about what we can achieve, I relate it to how 
the Internet has enabled software engineers to become 
entrepreneurs. Before the Internet became mainstream, brining 
new software to the market was difficult. You had to know what 
users wanted, build out the software on your own, typically 
with the support of a large company, and go through many, many 
rounds of testing. Once you had a product that you thought was 
viable, you had to manufacture large quantities of it on a CD 
or a floppy disk, get them into a retail environment, and 
determine how to market it so the software would sell.

    Today, using the Internet, any software engineer can become 
an entrepreneur. The Internet has removed the barriers. 
Launching a website has become incredibly easy. This is the 
reason why companies like Goggle, Amazon and Facebook became so 
successful so quickly.

    Similar to how the Internet removed barriers for software 
development, 3D printing is removing barriers for manufacturing 
products. Designers can: create their products and have them 
printed out with little cost; ideate and update their designs 
quickly so there's no need to do marketing research in advance; 
build products without costly upfront payments for 
manufacturing or molds; and distribute products directly 
online, with no retail investment. Plus, they can continuously 
evolve their products, since they don't have to keep any 
inventory.

    And there is no question that entrepreneurs are taking 
notice. From 2012 to 2013, product uploads increased from 
40,000 per month to 100,000 per month, and the number of new 
people creating products on Shapeways has doubled!

    3D printing transforms how we think about launching 
products and enables the garage (product) entrepreneur in ways 
they could never conceive of in the past.

    To understand it in more detail, I'll first tell you how 
Shapeways works:

          <bullet> Anyone can upload a 3D design to 
        Shapeways.com. There are many free and open source 
        software programs available to use for 3D modeling so 
        literally anyone can do it! And, they don't even need a 
        lengthy or expensive class to learn how. In fact, 
        Shapeways surveyed its shop owners in 2013 and found 
        that 50 percent taught themselves how to 3D model!

          <bullet> After the design is uploaded, the user 
        selects the material in which to print or make 
        available. Shapeways offers 40 materials and finishes, 
        including precious metal, bronze, ceramic, plastic and 
        full color sandstone.

          <bullet> The designs are reviewed by our 3D print 
        engineering team to ensure that they are viable for 3D 
        printing. Once confirmed, the design is sent to a 3D 
        printer.

          <bullet> 3D printers build products one layer at a 
        time, slowly forming the final product. This process 
        can take anywhere from hours to days depending on the 
        size and complexity of the design. However the 
        industrial machines we use can build thousands of parts 
        at the same time, enabling scale.

          <bullet> Once complete, products are removed from the 
        printer and cleaned by hand.

          <bullet> Printed products may be polished or dyed 
        depending on the material and order.

          <bullet>  Finally, the finished product is packaged 
        by Shapeways and shipped directly to the creator or 
        shopper!

    On-demand 3D printing as described above is at the core of 
Shapeways. People have used it to create endless types of 
products for their hobby or business, including model trains, 
jewelry, funny internet memes, home decor such as lamps, 
dishware like cups and plates, cell phone covers, and so much 
more. But we allow, and encourage, designers to take it one 
step further by creating shops of their own. This is where the 
true ability to become a small business owner comes in.

    GothamSmith is one example of this type of small business 
that came about because of 3D printing. Four friends who were 
working in creative industries in NYC wanted to create 
something more tangible and lasting than a website or app. 
Starting with designing cufflinks and eventually moving into 
other jewelry. GothamSmith uses 3D modeling applications to 
develop unique ideas. Shapeways gives them the ability to 
quickly turn these ideas into physical prototypes and then 
final products at scale--without relying on costly large-scale 
metal casting machinery. They sell their products on 
Shapeways.com and through other channels, and are emphatic that 
their business wouldn't exist without Shapeways or 3D printing.

    The ability to easily create one-of-a-kind, customizable 
products is another phenomenon spurred by 3D printing. An 
otherwise extremely costly and labor intensive process, 3D 
printing and Shapeways make it seamless. One company that is 
leveraging the technology this way is Nervous System, a design 
studio that uses a novel process, creating computer simulations 
inspired on natural phenomena such as the growth of coral. 
Their process generates products such as jewelry and light 
fixtures. All of their products are one-of-a-kind and 3D 
printed by Shapeways, sold on our site and multiple retail 
channels, including the MoMA Store. They are another example of 
a successful business that is rapidly growing, and employing 
more people every day as demand grows!

    These are just a couple examples among the more than 14,000 
stores currently open on Shapeways, and we know our users are 
hungry for more. In a survey last year, we found that of our 
shop owners:

          <bullet> 50 percent are first-time entrepreneurs (of 
        anything!)

          <bullet> 84 percent want selling on Shapeways to be 
        their full-time job.

          <bullet> 94 percent spent less than $1,000 to open 
        their shops!

    The technology has been around for decades and has impacted 
dozens of industries, including automotive, engineering, 
construction, entertainment, and even medicine. We're just now 
starting to really grasp what it can achieve.

    Even the President of the United States has acknowledged 
this great opportunity. Shapeways is currently working with the 
White House to partner on the first ever White House Maker 
Faire, dedicated to showcasing and celebrating the Maker 
movement. The goal is to support a culture of making, and use 
it as a call to action for stakeholders, and Shapeways has 
committed to help the White House use this moment-in-time to 
facilitate entrepreneurship.

    And, in his State of the Union address last month, 
President Obama spoke about a facility in Ohio saying that: ``A 
once-shuttered warehouse is now a state-of-the-art lab where 
new workers are mastering a 3-D printing that has the potential 
to revolutionize the way we make almost everything.''

    It's true, 3D printing does have the potential to 
revolutionize the way we make everything. I'm passionate about 
helping others see that, and I hope that I have effectively 
demonstrated to you the positive impact it can have on small 
businesses, creating many jobs in the process.

    Moving forward, it will be critical that accessibility to 
3D printing remains uninhibited.

    Thank you for your time today, and allowing me the honor of 
speaking about 3D printing. A technology that will change the 
world.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Graves, Ranking Member Velazquez, and Committee 
Members, I am honored to have the opportunity to speak with you 
about technologies that are significantly impacting how we make 
and manufacture, across industries. From product development to 
manufacturing additive manufacturing (AM), also known as 3D 
printing, give us new capabilities that will alter how we 
compete in an increasingly global marketplace. Whether getting 
tangible prototypes faster and cheaper, hybridizing existing 
production methodology, or completely transforming industries, 
after 30 years of development and a CAGR of 29.4%, AM 
technologies are coming of age and are already shifting 
paradigms for manufacturing and supply chain models. ``Using AM 
to break the constraints of these (existing performance) trade-
offs creates opportunities for companies to improve 
performance, grow, and innovate.'' \1\ The paradigm shift is 
proving to be especially valuable to small business and 
entrepreneurs--the generation point of much innovation and the 
backbone of the American economy.
---------------------------------------------------------------------------
    \1\ Deloitte University Press, ``3D opportunity: Additive 
manufacturing paths to performance, innovation, and growth.'' Pg. 6: 
http://dupress.com/articles/dr14-3d-opportunity/

    I'll start with a real-world example. 3D Maryland is 
located within the Maryland Center for Entrepreneurship (MCE), 
which has approximately 95 clients in its business incubator. A 
new client came to visit me within two weeks of joining the 
MCE, having heard that I was the 3D Printing Person. He started 
talking about his product, having prototypes made, having sent 
$2500 to someone in China and not hearing anything from them. 
He asked if I could help. My first question: ``When do you need 
it?'' His answer: ``Yesterday.'' My response: ``Send me your 
files and I'll see what I can do.'' He promptly emailed the 2-
dimensional product drawings and I immediately had the 
necessary 3-dimensional computer aided design files created. 
When the hopeful entrepreneur knocked on my door two days later 
to check in, saying nothing, I gestured toward the build 
platform of the 3D printer across my office. He looked at the 
object on the build platform, looked at me, looked back at the 
printer, speechless. I said, ``That's your prototype.'' 
Eventually, he said, ``This is like magic.'' Well, it isn't 
magic, but it is a tool that can get all kinds of parts and 
products developed locally, significantly faster and cheaper. 
It is a tool that allows us to optimize and adapt products and 
processes much more efficiently. The efficiencies are expected 
to expand, assuming the trends in adoption and development 
continue \2\.
---------------------------------------------------------------------------
    \2\ Econolyst, ``Building Small Business Around 3D Printing'' 
http://www.econolyst.co.uk/resources/documents/files/Presentation%20-
%20Oct%202012%20-%203D%2Oprintshow%20London%20UK%20-
%20Building%20a%20small%20business%20around%203D%20printing.pdf

    To budding entrepreneurs and small business owners alike, 
parting with $2500 to invest in capital is already risky, 
regardless of physical manufacturing location. Why might 
someone take the risk of having less oversight/control of their 
capital investment by choosing to manufacture at such a 
distance? The answer is that the perceived risk was minimized 
by the fact that in order to be cost effective enough to 
compete and survive while using traditional manufacturing, one 
has had to utilize the efficiencies produced in the global 
supply chain. Additive Manufacturing reverses efficiencies of 
scale and standardization--dramatically reducing required 
capital investment and risk in manufacturing, while creating 
opportunity for complex and personalized designs--effectively 
---------------------------------------------------------------------------
reducing the barriers to new entrants across industries.

    Background

    I am the Executive Director of 3D Maryland: a state-wide 
leadership initiative created to raise the awareness of 3D 
printing and the concomitant business benefits, and to 
facilitate engagement and implementation of these technologies 
among business, industry, and entrepreneurs as a driver for 
innovative economic growth. Prior to 3D Maryland, I built and 
directed Object Lab along with the Object Design program @ 
Towson University, Baltimore, Maryland, where I am a full 
professor. The Object Design program was designed to include an 
internship program focused on working with small business and 
entrepreneurs to engage 3D printing and digital fabrication/
rapid technologies. Object Lab is a comprehensive, state-of-
the-art digital fabrication lab that today includes seven 3D 
printers in addition to laser cutting, CNC milling, 3D 
scanning, and high end computer aided design capabilities. A 
finalist in the Volt Awards in the Technology Implementer 
Category, the Object Lab @ Towson University spawned a digital 
fabrication lab that bridges the academia and business at East 
Stroudsburg University, Stroudsburg, Pennsylvania for which I 
have been a primary consultant.

    Paradigm Shifting Technology

    3D printing and additive manufacturing (3DP/AM) is a 
disruptive 21st century technology. It is changing what we 
make, how we make it, where we make it, and who makes it. It is 
disrupting economies of scale, current business models, and 
democratizing who can make and manufacture across industries. 
Engagement with these technologies is notably accelerating. 
Innovation and entrepreneurial opportunities are at the heart 
of these technologies.

          <bullet> The benefits from economies scope are still 
        being explored, but appear to have immense potential. 
        We are seeing new and unfamiliar complex geometries 
        that might not have been possible or practical with 
        traditional manufacturing. For example, newly developed 
        AM products proved to be capable of achieving efficient 
        lighter and stronger properties, delivering drastically 
        improved results over the product's lifecycle. We are 
        seeing products with more organic structures and re-
        entrant features. We are able to print assemblies. We 
        are manufacturing for design rather than designing for 
        manufacturing. New tools bring new capabilities.

          <bullet> Additive manufacturing's inherent 
        flexibility further increases the technology's 
        advantages from economies of scope. While each of the 
        seven 3D printing technologies has specific 
        applications, within those applications the tool can 
        virtually produce an unlimited range of products 
        without any tooling adaptation. Multiple functionality 
        allows for unlimited customization are very minimal, if 
        any, cost.

          3DP/AM is a decentralized, distributed ecosystem 
        reliant on digital data which can be transmitted 
        anywhere making localized production a reality. 3D 
        printers can virtually run 24/7 unassisted thus it is 
        referred to as lights-out manufacturing, and print-on-
        demand technology. Printing what we need, where and 
        when we need it disrupts the supply chain and lowers 
        inventory costs in numerous ways: lead time, storage, 
        shipping, loss of control, tied up cash--all 
        contributing to lowering cost to entry.

          <bullet> The sweet spot for 3DP/AM today is in low 
        volume/high value parts and products from end-of arm 
        tooling to hearing aids. We are beginning to see 
        manufacturing without traditional tooling and on-off 
        tooling, and concepts such as mass customization are a 
        reality. It costs no more per unit to run one unique 
        part, small batch production, or 15,000 one-offs, as in 
        the case of Invisalign aligners. Traditional 
        manufacturing required large capital investments and 
        standardization in order to product large quantities to 
        benefit from economies of scale. Economies of scale are 
        reached at the point of minimum efficient point (where 
        the average cost of producing each unit is the lowest). 
        The lowest marginal cost to produce of additive 
        manufacturing is very low, potentially 1. Figure 1 
        shows the cost structure of production where the cost 
        of each additional unit is the same with AM (the lowest 
        minimum efficient point is one). The required 
        investment for AM is substantially lower than with 
        traditional manufacturing, and reduction in price is 
        expected to continue.

          <bullet> Lots of people have ideas. Now people have 
        myriad access points to rapid technologies that can 
        help them realize their ideas encouraging innovation 
        and entrepreneurship. Garage invention reinvented. The 
        significance and accessibility of these technologies is 
        not to be overlooked.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        
    Impact of 3D Printing for Small Business and Entrepreneurs

    The significance of small business and entrepreneurs to the 
economy are widely recognized with familiar statistics such as 
`the approximately 23 million small businesses in the US 
account for 55% of jobs and 66% of all net new jobs since 
1970s' \3\ and '89.8% firms are businesses with less than 20 
employees.\4\ It is unfortunate that, typically, small business 
owners and entrepreneurs have the most difficulty competing 
with large entities because of the lack of funds required to 
reach efficient production. AM/3DP offers opportunities for 
both groups to effectively compete, globally even, and 
innovate.
---------------------------------------------------------------------------
    \3\ Small Business Association, SBA.gov
    \4\ U.S. Census, Statistics of U.S. Business, http://
www.census.gov/econ/susb/

    The primary advantages of 3D printing are significant to 
small and large business alike, but they level the playing 
field so that small businesses have opportunity to compete and 
develop solutions. Proof of concept models and more efficient 
iterative prototyping lead to optimized products prior to 
commercialization. Cost savings can be captured with faster and 
cheaper prototypes. More importantly for small business, 3D 
printing allows for less expensive process improvement and 
innovations. When a business culture permits, if employees can 
envision a tool that can make a process work more effectively, 
and the company has the expertise to create CAD drawings of the 
improvement, chances are that tool can be made. Improvement 
leads performance improvement, growth and/or innovation and 
---------------------------------------------------------------------------
result in added business value of either profit or time.

    Small business has distinct advantages when adopting 
additive manufacturing technologies and may be in a better 
position to develop entrepreneurial solutions. Small businesses 
tend to be more agile in terms of structure, focus, and 
culture. There are certain barriers to entry in this space that 
small businesses may not struggle with as much as larger 
established businesses. Larger enterprises tend to have large 
sunk costs (investments in capital) and, after many years, 
following a successful standardization/large-scale supply chain 
model, may be resistant to transition into a new framework. 
Enabling small business to develop advancements and solutions 
that feed into and support the larger economic pipeline is an 
important piece of advancing the American economy. Even larger 
companies are seeing the value in utilizing a smaller structure 
for innovation: companies spin out start-ups in order to make 
advancements in specific areas.

    Small Business Maryland Case Studies

    Danko Arlington Foundry, Baltimore, Maryland, Baltimore 
County

    A 94-year old family owned foundry in Baltimore City 
serving primarily the aerospace and defense industry turned to 
3D printing and rapid technologies when they started having a 
hard time finding skilled workers in legacy technologies. With 
an eye on the downward trends of vocational training, general 
discouragement of trade work and manufacturing, lack of 
meaningful internships and apprenticeships, and the retirement 
of the labor code of this specialized skill, John Danko sought 
new solutions landing on 3D printing technologies. In 2010, 
Danko Arlington purchased its first 3D printer for $500,000, 
the largest on the market. Danko Arlington began using 3D 
printing to print the masters for the sand molds, a process 
that required Danko Arlington to invest substantial time and 
money into adapting the technology for this purpose. There was 
no roadmap for John Danko, he created his roadmap. A true 
success story, Danko Arlington credits the adoption of these 
technologies with not only increasing profit but also creating 
jobs.

    Danko Arlington attributes the inclusion of 3D printed 
prototypes with bids as part of the key to winning proposals. 
Tooling is a required part of federal contracts. Danko 
Arlington uses 3D printing technologies to create their foundry 
tooling, which is one example tooling costs were 1/5th that of 
traditional tooling. CEO John Danko says, ``Additive 
manufacturing brings new opportunities to a ninety-four year 
old company, and is helping to create jobs.'' In 2013, Danko 
Arlington purchased its second large-scale 3D printer as a 
result of securing a year-long federal contract. They sell 
excess 3D printing capacity to other companies from small 
entrepreneurs to General Motors of Whitemarsh, and John Danko 
generously shares his lessons learned with the Maryland rapid 
tech ecosystem. John Danko is the epitome of the American 
spirit: hard work, a can-do attitude, and an entrepreneurial 
edge.

    UAV Solutions, Jessup, Maryland, Howard County
    UAV Solutions manufactures unmanned aerial vehicles. 
Established in 2007 with eleven employees, UAV Solutions is 
currently a 55-employee, hybrid manufacturer utilizing five 
industrial grade 3D printers 24/7.

    Dixon Valve & Coupling, Chestertown, MD, Eastern Shore
    Dixon Valve manufactures industrial fittings, joints, 
gears, locks and clamps.
    Dixon Valve created an Innovation Center in early 2000 and 
made its first 3D printing capital investment at a $160,000 to 
accelerate its innovation efforts. ROI was realized in 18 
months.

    Barriers to Engagement

    An informal survey of small businesses in Maryland returned 
the following as barrier to adoption which was presented to the 
Office of Advocacy February 2014.

    Access to knowledge. One of the biggest barriers is access 
to accurate information about the technologies from 
knowledgeable and trusted sources. There are seven primary 3D 
printing technologies, over 200 materials can be printed from 
tool steel to biological cells, and there are more than 75 
different machines not including the desktop class of printers 
of which there are many. Knowledgeable and trusted information 
sources are important as people seek to understand what the 
technology can and cannot do, how others have strategized the 
challenges, and how and where to start.

    Overcoming Industrial Era Thinking. 3D printing and 
additive manufacturing are paradigm-shifting technologies. Two 
of the barriers to entry are getting our industrial era brains 
to think differently about ways to make and manufacture, as 
well as developing a digital culture and workflow within 
established businesses. Some engineers are on board, some 
designers are on board, and some are not. New tools allow for 
new capabilities, but first we must recognize the 
opportunities. New tools are leading us to new and unfamiliar 
geometries; geometries that are stronger and lighter; 
geometries that are optimized for the job they are to perform, 
while proving to have a lifecycle worth well over its 
traditionally manufactured counterpart. With some level of 
frequency engineers--especially managing engineers/mid-level 
engineers--report resistance from C-level decision makers. When 
the Gutenberg press came out people thought it was pretty cool 
but few could predict its impact it.

    Cost of Entry. The allocation of resources whether capital 
costs or human resources can be a barrier. There are three 
primary classes of 3DP hardware: consumer: <$5,000, 
professional: $5,000-150,000, industrial: $150,000-1 million. 
It is worthwhile noting that consumer-grade desktop printers 
have a role in business and industry adoption; business and 
industry can get in the game between $10,000-$50,000; and it is 
only the highest end, highest grade printers that are in the 
$500,000-$1 million range. Industry standard software can be a 
barrier for the small business and entrepreneur both in terms 
of cost per license and also interoperability between 
functionalities.

    Position of the Technology. With thirty years under its 
belt and recent accelerated growth 3d printing and additive 
manufacturing is here to stay. Rapid prototyping is here to 
stay, the cost savings are proven. While we do have high end 
case studies of direct digital manufacturing where 500 
certified production parts are printed on one printer 
overnight, with lead times decreased from 3-4 weeks to 3 days 
from order to delivery, and per piece part reduced by 5% and 
tooling costs eliminated \5\ this is the exception not the 
norm. Enterprise companies have the resources to advance the 
application of the technology and they should. Boeing has been 
3D printing non-critical parts for decades. Key drivers for the 
industry include the hardware getting faster, materials more 
closely matching traditional materials, and reliable 
repeatability. The $1 million question for most companies is 
not whether to get in, it is when is the right time to get in? 
Scaled direct digital manufacturing is coming. There is a 
learning curve with these technologies at each point on the 
continuum. Companies that purchase equipment and have it in 
house generally apply the new technology efficiently across 
business units, since they tend to find more applications when 
the equipment is on site.
---------------------------------------------------------------------------
    \5\ Stratasys, ``A Turn for the Better: Direct Digital 
Manufacturing Reduces Instrument Part Cost 5% and Lead Time 93%,'': 
http://www.stratasys.com/ /media/Case%20Studies/Aerospace/SSYS-CS-
Fortus-KellyManufacturing-08-13.ashx

---------------------------------------------------------------------------
    3D Maryland

    Maryland is poised to be a hub in the mid-Atlantic region 
for 3D printing and additive manufacturing drawing on and 
expanding the region's significant core competencies and 
assets. In recent white paper by the Economic Alliance of 
Greater Baltimore, the Alliance highlights the potential for 
the adopting AM and 3DP in the region:

    ``Greater Baltimore claims a number of distinctive 
qualities that creates a fruitful region, poised for a position 
of leadership in the growth of 3D printing. The region produces 
some of the most innovative minds in the country, and when 
combined with Washington, DC, the corridor is arguably one of 
the best educated regions in the country. The Baltimore 
Metropolitan Statistical Area offers strengths and 
opportunities to innovators in or seeking to enter the 3D 
printing industry. No region is better positioned for 
improving, refining, and creating new methods and uses for 3D 
printing.'' \6\
---------------------------------------------------------------------------
    \6\ Economic Alliance of Greater Baltimore, ``3D Printing: The 
Future of Manufacturing in Greater Baltimore,'' http://
www.greaterbaltimore.org/portals/<INF>--</INF>default/publications/
3dprint.pdf

    3D Maryland is an innovative and entrepreneurial initiative 
addressing barriers to entry and advancing the business 
advantages of 3D printing for business, industry and 
entrepreneurs. 3D Maryland is identifying and addressing 
opportunities to strengthen and advance the rapid tech 
ecosystem in Maryland in order to build a loosely coupled 
system of collaborative relationships and partnerships across 
sectors to innovate and accelerate the region's economic 
competitiveness. The initiative is already engaging in 
practices in order to achieve these goals. The Maryland rapid 
tech ecosystem interactive online map on 3D Maryland's web site 
indicates an overall level of engagement, as well as sector 
engagement with delineation of private sector users, service 
providers, educational programs, federal labs, etc. The 3D 
Maryland Expert User group brings together a diverse group of 
practitioners and stakeholders that work together to accelerate 
commercial application of AM technologies through cross-
pollination and collaboration. The user group is open to firms 
of any size that are currently exploring additive 
manufacturing. The initiative is planning to create a general 
user group in order to address the needs and engage with 
potential users. An online platform, www.3DMaryland.org, 
provides users and interested parties throughout the state with 
information on resources and opportunities within the 3D 
printing space. In combination with the knowledge resources 
offered, 3D Maryland offers a physical facility for learning 
that encourages efficient, educated adoption. The Innovation 
and Prototyping Lab is a technology agnostic knowledge center 
where people can learn computer aided design through a variety 
of software packages, 3D printing, and 3D scanning. Based on a 
fee-for service model, target audience can access the 
---------------------------------------------------------------------------
Innovation and Prototyping Lab for small batch printing.

    Call To Action

          <bullet> Encourage and support initiatives, such as 
        3D Maryland, that have a focus on multi-sector, cross-
        disciplinary, pre-competitive collaboration, building 
        on strengths and core competencies to advance current 
        practices, foster innovation, and grow regional 
        ecosystems, while taking advantage of public funding 
        resources. This would build on the momentum created by 
        the National Additive Manufacturing Innovation 
        Institute, now known as America Makes, which is an 
        example of private-public partnerships.

          There is multi-directional concern about the loss of 
        America's production/manufacturing base. The MIT task 
        force on the Production in the Innovation Economy, 
        states, ``We saw reasons to fear that the loss of 
        companies that make things will end up in the loss of 
        research that can invent them.'' ``The PIE taskforce 
        believes that one objective is the most urgent: 
        rebuilding the industrial ecosystem with new 
        capabilities that many firms can draw on when they try 
        to build their new ideas into products on the market.'' 
        ``Research suggests that it's the co-located 
        interdependencies among complementary activities, not 
        narrowly specified clusters that produce higher rates 
        of growth and job creation, and they do so across a 
        broad range of industries...'' ``The key functions 
        are...convening, coordination, risk-pooling and risk-
        reduction, and bridging.'' \7\
---------------------------------------------------------------------------
    \7\ MIT PIE Task Force, ``Report of the MIT Taskforce on Innovation 
and Production,'' http://web.mit.edu/press/images/documents/pie-
report.pdf

          <bullet> Address creating an adaptive workforce at 
        all points on the spectrum: work at the grass-roots 
        level, locally with users with proven track records, 
        from both industry and education to institute changes 
        in K-16, vocational training and apprenticeship 
        programs, retraining programs, etc. Wider adoption is 
        inevitable; we need ensure that the workforce is 
        prepared to increase engagement. The current value of 
        the AM technology and service industry is $1.7 billion, 
        with an overall compound annual growth rate of 29.4%. 
        At current levels of growth, the industry is forecasted 
        to be worth $8.4 billion by 2020--assuming organic 
        growth based only on today's technologies. Additive 
        manufacturing sector analysts accept that penetration 
        is currently 8% of the potential market opportunity. 
        With technically development and far-reaching adoption 
        (>8% penetration), the industry could be worth $105B by 
        2020 \8\.
---------------------------------------------------------------------------
    \8\ Econolyst, ``Building Small Business Around 3D Printing'' 
http://www.econolyst.co.uk/resources/documents/files/Presentation%20-
%20Oct%20201%20-%203D%20printshow%20London%20UK%20-
%20Building%20a%20small%20business%20around%203D%20printing.pdf

          ``Studies have shown that students who are educated 
        in AM processes are among the first to bring the 
        advanced hands-on technologies to their employers.'' 
        \9\
---------------------------------------------------------------------------
    \9\ Wohlers & Associates: Wohlers Report 2013: pg 261

          <bullet> Continue small business incentives such as 
        low interest loans and tax cuts but also incentivize 
---------------------------------------------------------------------------
        small businesses to adopt leading edge technologies

          <bullet> Continue to support for research funding and 
        programs to facilitate technological transfer. 
        Technological progress with 3DP and AM has accelerated 
        rapidly recently, primarily due to increased 
        investment. The technologies are becoming more 
        accurate, versatile, and accessible (financially)--
        promising movement towards leveling the playing field 
        in modern manufacturing.

          <bullet> Incentivize private investment in small 
        businesses that utilize proven leading edge emerging 
        technologies.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
